<html>
<title> - PRIVACY IN THE DIGITAL AGE: PREVENTING DATA BREACHES AND COMBATING CYBER CRIME</title>
<body><pre>[Senate Hearing 113-654]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-654

  PRIVACY IN THE DIGITAL AGE: PREVENTING DATA BREACHES AND COMBATING 
                              CYBER CRIME

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 4, 2014

                               __________

                          Serial No. J-113-48

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-640 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
              Kolan Davis, Republican Chief Staff Director
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont....     1
    prepared statement...........................................    53
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
    prepared statement...........................................    55

                               WITNESSES

Witness List.....................................................    51
John Mulligan, Executive Vice President and Chief Financial 
  Officer, Target Corporation, Minneapolis, Minnesota............     4
    prepared statement...........................................    58
Michael R. Kingston, Senior Vice President and Chief Information 
  Officer, The Neiman Marcus Group, Dallas, Texas................     6
    prepared statement...........................................    64
Delara Derakhshani, Policy Counsel, Consumers Union, Washington, 
  DC.............................................................     8
    prepared statement...........................................    72
Fran Rosch, Senior Vice President, Security Products and 
  Services, Endpoint and Mobility, Symantec Corporation, Mountain 
  View, California...............................................     9
    prepared statement...........................................    78
The Honorable Edith Ramirez, Chairwoman, Federal Trade 
  Commission, Washington, DC.....................................    36
    prepared statement...........................................    98
William Noonan, Deputy Special Agent in Charge, Criminal 
  Investigative Division, Cyber Operations Branch, U.S. Secret 
  Service, Washington, DC........................................    38
    prepared statement...........................................   110
Mythili Raman, Acting Assistant Attorney General, Criminal 
  Division, United States Department of Justice, Washington, DC..    39
    prepared statement...........................................   121

                               QUESTIONS

Questions submitted by Senator Patrick Leahy for John J. Mulligan   133
Questions submitted by Senator Chuck Grassley for John J. 
  Mulligan and Michael R. Kingston...............................   134
Questions submitted by Senator Patrick Leahy for Michael R. 
  Kingston.......................................................   135
Questions submitted by Senator Patrick Leahy for Delara 
  Derakhshani....................................................   136
Questions submitted by Senator Patrick Leahy for Fran Rosch......   137
Questions submitted by Senator Chuck Grassley for Fran Rosch.....   138
Questions submitted by Senator Patrick Leahy for Edith Ramirez...   139
Questions submitted by Senator Patrick Leahy for William Noonan..   140
Questions submitted by Senator Patrick Leahy for Mythili Raman...   141

                                ANSWERS

Responses of John J. Mulligan to questions submitted by Senator 
  Leahy..........................................................   142
Responses of John J. Mulligan to questions submitted by Senator 
  Grassley.......................................................   145
Responses of Michael R. Kingston to questions submitted by 
  Senators Leahy, Blumenthal, and Grassley.......................   148
Responses of Delara Derakhshani to questions submitted by Senator 
  Leahy..........................................................   158
Responses of Fran Rosch to questions submitted by Senator Leahy..   160
Responses of Fran Rosch to questions submitted by Senator 
  Grassley.......................................................   162
Responses of Edith Ramirez to questions submitted by Senator 
  Leahy..........................................................   164
Responses of William Noonan to questions submitted by Senator 
  Leahy..........................................................   167
Responses of Mythili Raman to questions submitted by Senator 
  Leahy..........................................................   170

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Confidentiality Coalition, February 3, 2014, statement...........   177
Credit Union National Association (CUNA), Bill Cheney, President 
  and CEO, February 4, 2014, letter..............................   179
American Bankers Association, The Clearing House, Consumers 
  Bankers Association, Credit Union National Association, 
  Financial Services Information Sharing and Analysis Center, The 
  Financial Services Roundtable, Independent Community Bankers of 
  America, National Association of Federal Credit Unions: 
  February 3, 2014, joint letter.................................   182
Michaels Stores, Inc., Irving, Texas, Michael J. Veitenheimer, 
  Secretary and General Counsel, January 31, 2014, letter........   185
National Business Coalition on E-Commerce and Privacy, 
  Washington, DC, Thomas M. Boyd, Partner, DLA Piper LLP, 
  February 4, 2014, statement....................................   186
National Association of Federal Credit Unions (NAFCU), Arlington, 
  Virginia, B. Dan Berger, President and CEO, February 3, 2014, 
  letter.........................................................   190
National Retail Federation, Washington, DC, Mallory Duncan, 
  General Counsel and Senior Vice President, February 14, 2014, 
  statement......................................................   194
Payment Card Industry (PCI) Security Standards Council, 
  Wakefield, Massachusetts, Bob Russo, General Manager, February 
  4, 2014, statement.............................................   207
Retail Industry Leaders Association (RILA), Arlington, Virginia, 
  William Hughes, Senior Vice President, Government Affairs, 
  February 4, 2014, letter.......................................   212
Dianne Feinstein, a U.S. Senator from the State of California, 
  February 4, 2014, statement for the record.....................   215

 
  PRIVACY IN THE DIGITAL AGE: PREVENTING DATA BREACHES AND COMBATING 
                              CYBER CRIME

                       TUESDAY, FEBRUARY 4, 2014

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:23 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Durbin, Whitehouse, 
Klobuchar, Franken, Coons, Blumenthal, Hirono, Grassley, Hatch, 
and Lee.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. Because of the time of the 
opening of the Senate, we are starting a little bit late, and I 
apologize for that, but I appreciate everybody who is here 
today from all over, including now snowy Colorado. I see Mr. 
Bronstein here.
    We are going to meet to examine how we can protect 
Americans from the growing dangers of data breaches and cyber 
crime in the digital age. Safeguarding American consumers and 
businesses from data breaches and cyber crime has been a 
priority of this Committee since 2005. For years, we tried to 
make sure that everybody understands this is not a Democratic 
or Republican issue. I have worked closely with Members on both 
sides of the aisle to advance meaningful data privacy 
legislation. In fact, I want to thank Senator Grassley for 
working with me very closely on this hearing, and I hope we can 
continue working together to advance the Personal Data Privacy 
and Security Act that I recently reintroduced to protect 
American consumers.
    Now, you watch the news, you pick up the papers, you listen 
to the news. Most Americans, myself included, have been alarmed 
by the recent data breaches at Target, Neiman Marcus, and 
Michaels stores. The investigations into those cyber attacks 
are ongoing. But they have compromised the privacy and security 
of millions of American consumers--potentially putting one in 
three Americans at risk of identity theft and other cyber 
crimes. I have never had a time when my wife and I have been so 
assiduous at checking our credit card bills, but that is the 
same with everybody.
    But public confidence is crucial to our economy. I 
mentioned those three stores. Those are all excellent stores. 
They are a major part of our economy. But we have to have faith 
in them. If we do not have faith in businesses' ability to 
protect their personal information, then our economic recovery 
is going to falter. And in the digital age, major data breaches 
involving our private information are not uncommon. There have 
been significant data breaches involving Sony, Epsilon, and 
Coca-Cola, but also in Federal Government agencies--the 
Departments of Veterans Affairs and Energy. In the past few 
days, we have also learned of data breaches at Yahoo! and White 
Lodging, which is the hotel management company for national 
hotel chains such as Marriott and Starwood. In fact, so it will 
not seem like we are singling out just a few businesses, 
according to the Privacy Rights Clearinghouse, more than 662 
million records have been involved in data breaches since 2005.
    Now, we all agree that businesses need to thoroughly assess 
the damage when a cyber attack is discovered. But time is of 
the essence for law enforcement seeking to catch the 
perpetrators and also for consumers who want to protect 
themselves against further exposure. It is not like when 
somebody comes in and robs a store. You know where it happened, 
and you have some general idea of where the perpetrator is. 
Here the perpetrator could be thousands upon thousands of miles 
away in another country. American consumers deserve to know 
when their private information has been compromised and what a 
business is doing in response to a cyber attack, because most 
of us rely on being able to do a lot of our business 
electronically.
    We should also remember that the businesses that suffer 
cyber attacks are also often the victims of a cyber crime. A 
recent study sponsored by Symantec found that data breaches 
involving malicious cyber attacks are the most costly data 
breaches around the globe. The per capita cost of such cyber 
attacks in the United States was $277 per compromised record in 
2013. Times that by millions upon millions upon millions. It is 
the highest cost for any nation that has been surveyed. And, of 
course, if you are in a fragile economic recovery, this is a 
significant hindrance.
    So before the Judiciary Committee today are representatives 
of Target and Neiman Marcus, as well as Consumers Union and 
Symantec. Later we will hear from the U.S. Secret Service, the 
Department of Justice, and the Federal Trade Commission.
    We are facing threats to our privacy and security unlike 
any time before in our Nation's history. We have also had 
hearings about questions of the threats to our privacy by our 
own government agencies. So I hope in this particular one we 
can get some good bipartisan support responding to it and get 
some data privacy legislation out here. I think we will all be 
better for it.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Grassley.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
                       THE STATE OF IOWA

    Senator Grassley. It is very important that we have this 
hearing. We have had well-publicized commercial data breaches. 
We are still learning about the details. This hearing will help 
bring more details out, I hope. But it is clear that these and 
other breaches have potentially impacted tens of millions of 
consumers nationwide.
    Today is an opportunity to learn about the challenges that 
both industry and law enforcement face in combating cyber 
attacks from well-organized criminals. The witnesses have a 
unique ability to provide us various important perspectives as 
we consider the government's role in securing sensitive data 
and crafting a breach notification standard.
    I hope to learn where the Committee's expertise could be 
helpful in combating future attacks. Furthermore, I would like 
to use this hearing to explore areas of common ground so that 
we can determine what might be accomplished quickly.
    It has been a couple of years since our Committee has 
considered data security legislation. In that time, we have 
learned a lot about this subject, thanks to broader 
cybersecurity conversation. The proposals offered by the 
administration and discussed in Congress, along with other 
government initiatives, can be helpful for us to proceed as we 
consider what to do with this legislation.
    When considering data security requirements, our approach 
should provide flexibility and also account for businesses of 
different sizes and different resources. In a world of crafty 
criminals, it seems to me that a one-size-fits-all approach 
will not work, or at least will not work for everybody. 
Instead, let us see how the government can partner with private 
business to strengthen data security.
    An example may be the National Institute of Standards and 
Technology's cybersecurity framework, which has received 
bipartisan support. And as far as the Senate is concerned, 
unless it is bipartisan, it is not going to go anywhere. That 
is not because there is something wrong with Democrats or 
Republicans. That is the institution itself.
    As we discuss the creation of a federal breach notification 
standard, we must avoid the risk of consumer overnotification. 
Just as there is a potential for harm when a victim is not 
notified of a breach, overnotification can lead to harm and 
apathy.
    As time permits, I want to explore these and other issues 
today and will be available to discuss things beyond the 
Committee process, either with colleagues or with other people. 
If everyone works together, it seems to me we can tackle these 
problems and hopefully limit future attacks.
    Thanks again, Mr. Chairman, and I would ask unanimous 
consent to include my full statement in the record along with 
statements that we received from these groups: the National 
Business Coalition on E-Commerce and Privacy, the Payment Card 
Industry, the National Association of Federal Credit Unions, 
the American Bankers Association, the National Retail 
Federation, and the Retail Industry Leaders Association.
    Chairman Leahy. Without objection, they will be included in 
the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Leahy. Could I ask the four witnesses to please 
stand and raise your right hand? Do you swear that the 
testimony you will give in this matter will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Mulligan. I do.
    Mr. Kingston. I do.
    Ms. Derakhshani. I do.
    Mr. Rosch. I do.
    Chairman Leahy. Let the record show that the four 
witnesses--Mr. Mulligan, Mr. Kingston, Ms. Derakhshani--I hope 
I came close--and Mr. Rosch--all took the oath. I thought what 
we would do is hear from each of the witnesses first, and then 
we will ask questions.
    John Mulligan is chief financial officer and executive vice 
president for Target, the second largest general merchandise 
retailer in the U.S. Mr. Mulligan joined Target in 1996. His 
responsibilities include treasury and internal and external 
financial reporting, financial planning and analysis, financial 
operations, tax assurance, investor relations, flight services. 
He graduated from the University of Wisconsin in 1988. In 1996, 
he earned a Master's of Business Administration degree from the 
University of Minnesota, I would mention to Senator Klobuchar 
and Senator Franken.
    Mr. Mulligan, please go ahead.

STATEMENT OF JOHN MULLIGAN, EXECUTIVE VICE PRESIDENT AND CHIEF 
 FINANCIAL OFFICER, TARGET CORPORATION, MINNEAPOLIS, MINNESOTA

    Mr. Mulligan. Good morning, Chairman Leahy, Ranking Member 
Grassley, and Members of the Committee. My name is John 
Mulligan. I am the executive vice president and chief financial 
officer of Target. I appreciate the opportunity to be here 
today to discuss important issues surrounding data breaches and 
cyber crime.
    As you know, Target recently experienced a data breach 
resulting from a criminal attack on our systems. To begin, I 
want to say how deeply sorry we are for the impact this 
incident has had on our guests--your constituents. We know this 
breach has shaken their confidence in Target, and we are 
determined to work very hard to earn it back.
    At Target, we take our responsibility to our guests very 
seriously, and this attack has only strengthened our resolve. 
We will learn from this incident, and as a result, we hope to 
make Target and our industry more secure for consumers in the 
future.
    I would now like to explain the events of the breach as I 
currently understand them. Please recognize that I may not be 
able to provide specifics on certain matters because the 
criminal and forensic investigations remain active and ongoing. 
We are working closely with the Secret Service and the 
Department of Justice on the investigation--to help them bring 
to justice the criminals who committed this widespread attack 
on Target, American business, and consumers.
    On the evening of December 12th, we were notified by the 
Justice Department of suspicious activity involving payment 
cards used at Target. We immediately started our internal 
investigation.
    On December 13th, we met with the Justice Department and 
the Secret Service. On December 14th, we hired an independent 
team of experts to lead a thorough forensics investigation.
    On December 15th, we confirmed that criminals had 
infiltrated our system, had installed malware on our point-of-
sale network, and had potentially stolen guest payment card 
data. That same day, we removed the malware from virtually all 
registers in our U.S. stores.
    Over the next two days, we began notifying the payment 
processors and card networks, preparing to notify our guests 
and equipping our call centers and stores with the necessary 
information and resources to address the concerns of our 
guests.
    Our actions leading up to our public announcement on 
December 19th--and since--have been guided by the principle of 
serving our guests, and we have been moving as quickly as 
possible to share accurate and actionable information with the 
public.
    What we note today is that the breach affected two types of 
data: payment card data, which affected approximately 40 
million guests, and certain personal data, which affected up to 
70 million guests. We believe the payment card data was 
accessed through malware placed on our point-of-sale registers. 
The malware was designed to capture payment card data that 
resided on the magnetic strip prior to its encryption within 
our systems.
    From the outset, our response to the breach has been 
focused on supporting our guests and strengthening our 
security. In addition to the immediate actions I already 
described, we are taking the following concrete actions: first, 
we are undertaking an end-to-end forensic review of our entire 
network and will make security enhancements, as appropriate. 
Second, we increased fraud detection for our Target REDcard 
guests. To date, we have not seen any fraud on our proprietary 
credit and debit cards due to this breach. And we have seen 
only a very low amount of additional fraud on our Target Visa 
card. Third, we are reissuing new Target credit and debit cards 
immediately to any guest who requests one. Fourth, we are 
offering one year of free credit monitoring and identity theft 
protection to anyone who has ever shopped in our U.S. Target 
stores. Fifth, we informed guests that they have zero liability 
for any fraudulent charges on the cards arising from this 
incident. And, sixth, Target is accelerating our investment in 
chip technology for our Target REDcards and stores' point-of-
sale terminals.
    For many years, Target has invested significant capital and 
resources in security technology, personnel, and processes. We 
had in place multiple layers of protection, including 
firewalls, malware detection, intrusion detection and 
prevention capabilities, and data loss prevention tools.
    But the unfortunate reality is that we suffered a breach. 
All businesses--and their customers--are facing increasingly 
sophisticated threats from cyber criminals. In fact, news 
reports have indicated that several other companies have been 
subjected to similar attacks.
    To prevent this from happening again, none of us can go it 
alone. We need to work together.
    Updating payment card technology and strengthening 
protections for American consumers is a shared responsibility 
and requires a collective and coordinated response. On behalf 
of Target, I am committing that we will be an active part of 
the solution.
    Senators, to each of you and all of your constituents and 
our guests, I want to once again reiterate how sorry we are 
this happened and our ongoing commitment to making this right.
    Thank you for your time today.
    [The prepared statement of Mr. Mulligan appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much, Mr. Mulligan.
    Michael Kingston is senior vice president and chief 
information officer for Neiman Marcus. In his role as chief 
information officer, he oversees approximately 500 
professionals responsible for all aspects of information 
technology and security, including technology strategies, 
system development, information technology service delivery for 
all Neiman Marcus brands, both in stores and its Web site, and 
has over 20 years of experience in the field.
    Mr. Kingston, thank you for being here. Please go ahead, 
sir.

  STATEMENT OF MICHAEL R. KINGSTON, SENIOR VICE PRESIDENT AND 
  CHIEF INFORMATION OFFICER, THE NEIMAN MARCUS GROUP, DALLAS, 
                             TEXAS

    Mr. Kingston. Mr. Chairman, Senator Grassley, Members of 
the Committee, good morning. My name is Michael Kingston, and I 
am chief information officer at Neiman Marcus Group. I want to 
thank you for your invitation to appear today to share with you 
our experiences regarding the recent criminal cybersecurity 
incident at our company. I have submitted a longer written 
statement and appreciate the opportunity to make some brief 
opening remarks.
    We are in the midst of an ongoing forensic investigation 
that has revealed a cyber attack using very sophisticated 
malware. From the moment I learned that there might be a 
compromise of payment card information involving our company, I 
have personally led the effort to ensure that we were acting 
swiftly, thoroughly, and responsibly to determine whether such 
a compromise had occurred, to protect our customers and the 
security of our systems, and to assist law enforcement in 
capturing the criminals. Because our investigation is ongoing, 
I may be limited in my ability to speak definitively or with 
specificity on some issues, and there may be some questions to 
which I do not have the answers. Nevertheless, it is important 
to us as a company to make ourselves available to you to 
provide whatever information we can to assist in your important 
work.
    Our company was founded 107 years ago. One of our founding 
principles is based on delivering exceptional service to our 
customers and building long-lasting relationships with them 
that have spanned generations. We take this commitment to our 
customers very seriously. It is part of who we are and what we 
do daily to distinguish ourselves from other retailers.
    We have never before been subjected to any sort of 
significant cybersecurity intrusion, so we have been 
particularly disturbed by this incident.
    Through our ongoing forensic investigation, we have learned 
that the malware which penetrated our system was exceedingly 
sophisticated, a conclusion the Secret Service has confirmed. A 
recent report prepared by the Secret Service crystallized the 
problem when they concluded that a specific type of malware, 
comparable and perhaps even less sophisticated than the one in 
our case, according to our investigators, had a zero percent 
detection rate by anti-virus software.
    The malware was evidently able to capture payment card data 
in real time, right after a card was swiped, and had 
sophisticated features that made it particularly difficult to 
detect, including some that were specifically customized to 
evade our multilayered security architecture that provided 
strong protection for our customers' data and our systems.
    Because of the malware's sophisticated anti-detection 
devices, we did not learn that we had an actual problem in our 
computer system until January 2, and it was not until January 6 
when the malware and its outputs had been disassembled and 
decrypted enough that we were able to determine that it was 
able to operate in our systems. Then, disabling it to ensure it 
was not still operating took until January 10. That day we sent 
out our first notices to customers potentially affected and 
made widely reported public statements describing what we knew 
at that point about the incident.
    Simply put, prior to January 2, despite our immediate 
efforts to have two separate firms of forensic investigators 
dig into our systems in an attempt to find any data security 
compromise, no data security compromise in our systems had been 
identified.
    Based on the current state of the evidence in the ongoing 
investigation: One, it now appears that the customer 
information that was potentially exposed to the malware was 
payment card information from transactions in 77 of our 85 
stores between July and October 2013, at different time periods 
within this date range in each store; two, we have no 
indication that transactions on our Web sites or at our 
restaurants were compromised; three, PIN data was not 
compromised, as we do not have PIN pads and we do not request 
PINs; and, four, there is no indication that Social Security 
numbers or other personal information was exposed in any way.
    We have also offered to any customer who shopped with us in 
the last year at either Neiman Marcus Group stores or Web 
sites--whether their card was exposed to the malware or not--
one year of free credit monitoring and identity theft 
insurance. We will continue to provide the excellent service to 
our customers that is our hallmark, and I know that the way we 
responded to this situation is consistent with that commitment.
    Thank you again for your invitation to testify today, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Kingston appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Kingston.
    And our next witness is Delara Derakhshani, who serves as 
policy counsel in Consumers Union's Washington office. She is 
the lead advocate for the organization's telecommunications, 
media, and privacy efforts. Consumers Union is the policy and 
advocacy division of Consumer Reports. Ms. Derakhshani 
graduated from the University of Virginia and earned a law 
degree from Catholic University's Columbus School of Law.
    We are glad to have you here. Please go ahead.

  STATEMENT OF DELARA DERAKHSHANI, POLICY COUNSEL, CONSUMERS 
                     UNION, WASHINGTON, DC

    Ms. Derakhshani. Chairman Leahy, Ranking Member Grassley, 
and esteemed Members of the Committee, thank you for the 
opportunity to testify before you today about data breaches. My 
name is Delara Derakhshani, and I serve as policy counsel of 
Consumers Union, the policy and advocacy arm of Consumer 
Reports.
    This past December--at the height of the holiday shopping 
season--40 million unsuspecting consumers learned that 
criminals may have gained unauthorized access to their credit 
card and debit card information. Subsequently, 70 million more 
learned that personal information such as names, addresses, and 
telephone numbers may have also fallen into the hands of 
suspected hackers. Since then we have learned of similar 
breaches at other retailers: Neiman Marcus has confirmed 
unauthorized access to payment data, and Michaels has stated 
that it is investigating whether a similar breach occurred. The 
press is reporting that the malware that was reportedly used in 
the Neiman Marcus and Target breaches was sold to criminals 
overseas. So what we have seen thus far may just be the tip of 
the iceberg.
    This is truly disturbing. As Consumer Reports and Consumers 
Union have reported with regularity in our publications, 
consumers who have their data compromised in a large-scale 
security breach are more likely to become victims of identity 
theft or fraud. And although federal consumer protection 
lending laws and voluntary industry standards generally protect 
consumers from significant out-of-pocket losses, policymakers 
and consumers should take these threats seriously.
    Then there are the very practical and time-consuming 
concerns for consumers whose data has been breached. Of 
particular concern is debit cards, which carry fewer legal 
protections. And while consumers might not ultimately be held 
responsible if someone steals their debit card data or pin 
number, data thieves can still empty out a consumer's bank 
account and set off a cascade of bounced checks and late fees 
which victims will have to settle down the road.
    What can happen to the data after it is stolen is 
disconcerting, to say the least. Sometimes data is resold to 
criminals outside of the country. Other times it is used to 
create counterfeit cards, debit cards which have direct access 
to your checking account. The result is decreased consumer 
confidence in the marketplace and uncertainty with the 
realization that your private financial information is out 
there in the ether for anybody to use for an unauthorized 
purpose.
    When Consumers Union learned of the breach, we wrote to the 
CFPB and urged them to investigate the matter and for increased 
public disclosure. And just last week, Attorney General Eric 
Holder confirmed that the Department of Justice is also 
investigating the matter. We know that lawmakers have urged the 
Federal Trade Commission to investigate as well, and we are 
grateful for these federal agencies' efforts and State 
Attorneys General's efforts so that we can figure out what 
happened and get to the bottom of this and figure out how to 
come up with a solution together to prevent these breaches from 
occurring in the future.
    We have also provided consumers with a number of tips, 
including checking transaction data, notifying your bank 
immediately of any suspicious activity; for extra protection, 
replacing credit cards, debit cards, and PIN numbers; placing 
fraud alerts and also security freezes so that lenders will be 
blocked from access to your credit report. And Target and 
affected retailers are also offering consumers credit 
monitoring, which we would be happy to speak about and answer 
questions about as well.
    Many other countries have shifted or are in the process of 
shifting to what is known as EMV technology or chip-and-PIN 
technology, which uses multiple layers of security, including a 
computer chip in each card that stores and transmits encrypted 
data, as well as a unique identifier that can change with each 
transaction.
    What we have reported in the past is that when this 
technology has been adopted in Europe, it has significantly 
decreased fraud. So we need a strong commitment from all 
stakeholders to adopt this technology sooner rather than later.
    These incidents reinforce just how timely and relevant 
these issues are. We are very appreciative of the Committee's 
efforts and the Chairman for introducing the Data Privacy and 
Security Act. We think that the sooner consumers know their 
data has been compromised, the sooner they can take steps to 
protect themselves.
    We would also urge the Committee to consider shortening the 
timeline for notification from the 60 days to require more 
immediate notification.
    We do also--we would like to strengthen some provisions, 
including those related to preemption. We want to make sure 
that any national standard results in strong, meaningful 
protections.
    In closing, we thank you for the opportunity to speak 
before you today. We appreciate your interest in data security, 
and we want to ensure that there is consumer confidence in the 
marketplace, and we look forward to working with you and all 
interested parties.
    Thank you very much.
    [The prepared statement of Ms. Derakhshani appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, and thank you for what you 
said about the legislation. I am hoping we can move it quickly.
    Fran Rosch is the senior vice president of user protection 
productivity, product management, and mobility solutions at 
Symantec. He drives the development and execution of Symantec 
and Norton's endpoint and mobile management. He was vice 
president of identity and authentication services before that. 
Obviously he has a background in this field.
    Please, sir, go ahead.

   STATEMENT OF FRAN ROSCH, SENIOR VICE PRESIDENT, SECURITY 
    PRODUCTS AND SERVICES, ENDPOINT AND MOBILITY, SYMANTEC 
             CORPORATION, MOUNTAIN VIEW, CALIFORNIA

    Mr. Rosch. Thank you, and good morning. Chairman Leahy, 
Ranking Member Grassley, distinguished Members of the 
Committee, thank you for the opportunity to testify today on 
behalf of Symantec Corporation. We are the world's largest 
security software company with over 31 years of experience 
developing information security and management technology.
    Our Global Intelligence Network is composed of millions of 
sensors all over the world and records thousands of events per 
second, and we maintain 10 Security Response Centers that 
operate 24/7 around the globe. This gives us a view of the 
entire Internet threat landscape. At Symantec, we also invest 
over $1 billion a year in R&D on advanced security technologies 
to help our customers stay ahead of the bad guys.
    The hearing today is critically important and will focus 
attention on what businesses and consumers can do to protect 
themselves from cyber attacks and data breaches. Attacks on 
point-of-sale, or POS, devices are not new, but it does appear 
the pace is increasing. This increase brings with it media 
attention and citizen concern, but this cannot be just about 
one or two high-profile crimes. Not just retailers but every 
organization with sensitive information is at risk, because 
cyber crime is a big business.
    In 2013, we estimate that the identities of over 435 
million people were exposed, and that number is rising as new 
reports surface. The cost of these breaches is very real and is 
borne directly by both consumers and organizations.
    For example, we estimate that in 2012 the global price tag 
of consumer cyber crime was $113 billion. The Ponemon Institute 
looked at the impact on companies and found that the average 
total cost of a breach in 2012 was $5.4 million. Ponemon also 
found that strong security before a breach and good incident 
management post-breach can dramatically cut the cost of these 
incidents.
    These breaches are increasingly caused by targeted attacks, 
which were up 42 percent year over year. Some are direct 
attacks on a company's servers, where attackers search for 
unpatched vulnerabilities or undefended connections to the 
Internet.
    All attacks have essentially one goal: to gain control of 
the user's computer. After infiltrating an organization, 
attackers can move laterally until they find what they are 
looking for. In the case of a retailer, this can include 
compromising point-of-sale systems to obtain valuable consumer 
information.
    The best way to prevent these attacks starts with the 
basics. Though criminals' tactics are continually evolving, 
good cyber hygiene is simple and cost-effective. Strong 
passwords, two-factor authentication, ubiquitous encryption are 
important elements of any good security program.
    But suboptimally deployed security can also lead to a 
breach, and a modern security suite that is being fully 
utilized is essential. Advanced security protection is much 
more than anti-virus software. In the past, the same piece of 
malware would be delivered to thousands or even millions of 
computers and was easily blocked through signature-based 
systems. Today cyber criminals can take the same malware and 
create unlimited unique variants that can slip past basic AV 
software. That is why modern security software does much more 
than look for known malware. It monitors your computer or 
mobile device, watching for unusual traffic patterns or 
processes that could be indicative of malicious behavior.
    At Symantec we have developed and provide reputation-based 
and behavior-based heuristic security technologies, which can 
identify and block more advanced threats. These solutions put 
files in context, using their age, frequency, location, and 
other characteristics to expose emerging threats that might 
otherwise be missed. If a computer is trying to execute a file 
that we have never seen anywhere in the world and that comes 
from an unknown source, there is a high probability that it is 
malicious and it should be blocked.
    Security should also be specific to the device being 
protected, and in some ways, point-of-sale system devices have 
advantages over other systems because the functions they need 
to perform can be narrowly defined. Allowing these devices to 
only run approved applications will reduce the attack surface 
and render many strains of malware ineffective.
    Yesterday Symantec released a special report called 
``Attacks on Point of Sales Systems'' that provides an overview 
of the methods that attackers may use and provides 
recommendations on how to protect these systems from attack.
    Unfortunately data breaches and cyber threats are part of 
our day-to-day lives. We will never be able to prevent every 
data breach or cyber attack, but working together, industry and 
government can make it increasingly more difficult for cyber 
criminals to succeed.
    Thank you again for this opportunity to be here today, and 
I am happy to take any questions that you may have.
    [The prepared statement of Mr. Rosch appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much, Mr. Rosch.
    I think we are all united in the same thing. We all want to 
stop these attacks, number one. Number two, as you just pointed 
out, Mr. Rosch, we are always going to have these attacks. No 
matter what we do, there will be more attacks. The question is: 
Can we successfully stop them? And are we keeping up to date 
with the realities of today as compared to years ago?
    Now, Mr. Mulligan, the data breach at Target, of course, 
became front-page news. I am not just going after your company, 
obviously, but it did have the potential to place one in three 
Americans at risk of fraud or identity theft--identity theft 
being probably one of the most difficult things somebody has to 
deal with.
    So what have you found so far? Are you any closer to 
finding who did it? And tell us just briefly what are the steps 
you are taking to protect privacy.
    Mr. Mulligan. So, Senator, as I said earlier, the intruder 
came in through a set of compromised vendor credentials and 
took two sets of data. The first set of data was malware was 
placed on our point-of-sale registers, and there they grabbed 
payment card information in the time between it being swiped 
from the magnetic stripe until we encrypt it within our 
systems. They then encrypted that and removed it from our 
systems.
    Separately, they took information from certain personal 
data--name, address, phone number, email address--for up to 70 
million records, similarly encrypted that, and removed that 
from our systems.
    We have had an ongoing forensic investigation and an end-
to-end review of our entire network to understand what went on. 
Since that time, we have removed the malware from our system. 
We have closed the point of entry. We have narrowed the scope 
of who has access to our systems. We have provided the malware 
to security firms for their review. And we have the ongoing 
end-to-end review where we will have additional learnings, and 
we are committed to taking additional actions.
    Chairman Leahy. You talk about discovery. As I understand 
it, the Justice Department told you about this on--well, you 
said this--on December 12 of last year. You found and removed 
the malware three days later, December 15. Am I correct on 
those dates?
    Mr. Mulligan. That is accurate, Mr. Chairman.
    Chairman Leahy. Had you had any knowledge that malware was 
there before the Department of Justice gave you that 
notification?
    Mr. Mulligan. We did not, Senator, Mr. Chairman. Despite 
the significant investment in multiple layers of detection that 
we had within our systems, we did not.
    Chairman Leahy. So you had all your systems in place, but 
you found out about it from the Department of Justice.
    Mr. Mulligan. That is correct, Mr. Chairman.
    Chairman Leahy. But the breach did not involve online 
purchases or transactions. Is that correct?
    Mr. Mulligan. That is correct. That is my understanding, 
Mr. Chairman.
    Chairman Leahy. And, Mr. Kingston, you testified that the 
breach that you saw at your company could affect 1.1 million 
American consumers. Is that correct?
    Mr. Kingston. What we have learned, Mr. Chairman, in our 
investigation is that this malware, which was inserted into our 
systems by the criminals, was operating in many of our stores 
at certain times between July and October 2013. And the maximum 
number of account numbers in our stores at that time that were 
exposed to the malware was 1.1 million accounts. But we do 
believe, because the malware was only operating at certain 
times, that the number is actually less than that.
    Chairman Leahy. Well, when did you first find out about it? 
As you said, it was operating during the summer. But when did 
you first find out about it?
    Mr. Kingston. The first time that we found out about the 
malware was when our forensic investigation teams discovered it 
on January 2, 2014.
    Chairman Leahy. When did you first receive information 
about it?
    Mr. Kingston. The forensic investigation firm first alerted 
us that there was some suspicious malware that they had found 
as part of the investigation on our systems on January 1.
    Chairman Leahy. But didn't you say that you first received 
information on December 17?
    Mr. Kingston. On December 17, we were notified by our 
merchant processor that MasterCard had found in its fraud 
systems 122 account numbers that had been fraudulently used 
that were used prior to that at Neiman Marcus locations.
    Chairman Leahy. Now, in the last month, since January when 
you first had this, have you changed any of your malware 
protection protocols or equipment?
    Mr. Kingston. Yes, we have. We have actually made a number 
of different changes. As I mentioned in my testimony, the 
malware, unfortunately, was not detected by our anti-virus 
systems, which we maintain and keep up to date. Since then, we 
have shared the malware both with forensic investigations 
teams, the Secret Service, and our anti-virus company, and they 
have provided us with updated signatures so that we can remove 
it and disable it.
    Chairman Leahy. How has the cooperation been with law 
enforcement?
    Mr. Kingston. We have been working with law enforcement all 
along the investigation, and they have actually been very, very 
helpful and very cooperative.
    Chairman Leahy. Would you say the same, Mr. Mulligan?
    Mr. Mulligan. I would, Senator. We have a long relationship 
with law enforcement, and they have been--our interactions 
throughout this time have been very productive.
    Chairman Leahy. Thank you.
    Senator Grassley.
    Senator Grassley. Yes, I want to associate myself with the 
remarks that the Chairman made just before he asked questions, 
and that is, I think we are all trying to find the same 
solution. This is not a case of a group of business people on 
one side and the government on the other side. We have got a 
major problem we have to deal with, and it is going to take 
cooperation. The Senator did not say it exactly that way, but I 
think--I hope I----
    Chairman Leahy. I agree with you.
    Senator Grassley. Thank you.
    As we have heard today, even companies with tremendous 
resources and multilayered--by the way, I am going to ask 
Mulligan, Kingston, and Rosch this. As we have heard today, 
even companies with tremendous resources and multilayered 
security systems can be attacked and breached. This means 
smaller businesses are more vulnerable to similar attacks. One 
thing I have heard repeatedly is that businesses of all sizes 
need flexibility in creating and implementing their security 
programs. What works for one may not work for another. But 
companies must be proactive, and guidelines for what they 
should be doing are helpful.
    So to you three, how can the government encourage the 
private sector to strengthen data security that provides 
businesses that flexibility and guidance that they need as 
opposed to burdensome government regulation?
    Mr. Mulligan. Start with me, Senator?
    Senator Grassley. Yes.
    Mr. Mulligan. We agree, Senator, that this is an evolving 
threat and one that is well beyond retail or Target to all 
industry. There were hundreds of breaches last year, and we 
think, therefore, the solution needs to be a combination of 
efforts across all participants in the space, Senator.
    I think for payment card information, similarly, there are 
a number of participants in the payment card world, and we need 
to work collectively to move to chip-and-PIN technology. That 
would have rendered the account numbers that were taken far 
less useful. But it is technologies like that that we think are 
important, and we are committed to moving forward and 
accelerating our efforts in that particular area.
    Senator Grassley. Mr. Kingston.
    Mr. Kingston. First of all, I think shedding light on this 
issue as the Committee is doing today is extremely helpful, and 
we appreciate that. I think one of the things that the 
government can do--there are a lot of actors in this ecosystem. 
There are technology companies. Obviously there is the private 
sector. There are law enforcement, government agencies. There 
are security experts. I think collectively all of those actors, 
all of those stakeholders, who have intelligence and are able 
to share it with the community, should be encouraged to do 
that. Information sharing can help us try to keep up with this 
problem, which is continuing to evolve and continuing to become 
more sophisticated.
    Senator Grassley. Mr. Rosch.
    Mr. Rosch. Yes, I would agree with what Mr. Kingston said. 
This is definitely a shared responsibility between companies 
and security vendors and consumers themselves to follow good 
practices. But we do believe it would be helpful for the 
government to recommend, in a very flexible way, some 
preventative measures that companies can take to at least give 
a guideline to be able to protect their systems.
    You mentioned the NIST standard. We believe that is a good 
voluntary and flexible framework that companies can use to 
guide in developing good security solutions.
    Senator Grassley. To the three of you again, you know, and 
this gets back to some people, maybe, think this ought to be 
completely government driven, and then there are people that 
think it is entirely industry, government stay out of it. The 
Chairman and I have talked about a partnership. Recently the 
National Institute of Standards and Technology was just 
mentioned here.
    So for you three, if government is going to create federal 
data security standards, what role, if any, should the private 
sector have in that process? Mr. Mulligan and then Kingston and 
then Rosch.
    Mr. Mulligan. Senator, I think private industry and 
government have to work together here. I agree with what you 
have heard. It is a shared responsibility, and communication 
between both the private sector and the public sector is 
important. We have had ongoing relationships and information 
sharing with law enforcement. That needs to happen more broadly 
between our organization and private organizations more broadly 
and the government to find solutions here.
    Senator Grassley. Mr. Kingston.
    Mr. Kingston. I think guidelines and standards are always 
very helpful, particularly in this case. So I would encourage 
that all of the stakeholders provide input into that.
    Mr. Rosch. Yes, I would agree, and I think, you know, the 
key word here is ``flexibility.'' I think what we have to 
recognize is that this is kind of an ongoing war, and the types 
of threats are changing all the time, and the new technology 
comes on the market to protect all the time. So we are 
constantly kind of raising the bar. So whatever gets developed 
needs to allow for that to happen versus locking in at any 
particular time what might seem acceptable.
    Senator Grassley. I am not going to ask a question. I did 
have a question, but I kind of want to make a statement that I 
hope that we can avoid a situation where the government says 
you do something and you do it, and it is abiding by the 
regulations and that may come up short of what we need to do. 
That is why I think cooperation is so important.
    Thank you, Mr. Chairman.
    Chairman Leahy. And I had indicated I agree with that, 
because we know we are dealing with something that even with 
the expertise of the four of you here, you could not tell me 
specifically what would be the greatest threat you might face 
18 months from now, because these things are evolving, just as 
our best intelligence agencies and others cannot either. But we 
want to give you a framework. We want to have a framework, one 
that protects consumers so they know where their rights are and 
being protected, but also protect our businesses, because you 
have to maintain the trust between both the businesses and the 
consumers for the good of our country. We have a fragile 
recovery. We are slowly recovering. But without that 
credibility, we cannot do it.
    I am going to yield to Senator Feinstein, then Senator 
Hatch, and go back and forth. I have to step out for a moment. 
Senator Feinstein.
    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman.
    I want to begin by thanking Mr. Mulligan and Mr. Kingston 
for being here, because up until very recently, companies would 
not step forward. Companies would not make it public. I 
introduced the first data breach notification bill in 2003, and 
I could not get any cooperation in that data breach. And I 
pulled the record and would like to introduce the particulars 
of what happened in 2002 and 2003 into the record. That will be 
the order.
    [The information referred to appears as a submission for 
the record.]
    Senator Feinstein. I am a shopper at your business then, 
Mr. Kingston. I do not recall getting any notice that my data 
may have been breached. When would I have had notice? And I 
would have shopped during the period of time.
    Mr. Kingston. Senator, we have actually sent out a number 
of different notifications, and I will start with the 10 of 
January when we learned----
    Senator Feinstein. But you said you did not learn--the 
breach took place months before you actually learned then that 
there was a breach.
    Mr. Kingston. It was not until January 6, actually, that we 
learned that this very sophisticated malware that was put in 
our systems had the ability to scrape card data in our systems. 
And then we quickly put in actions to contain and eradicate 
that malware, and then we immediately began notifying 
customers.
    Senator Feinstein. And you said that 1.1 million customers 
had been affected?
    Mr. Kingston. During that period of time, that was the 
total number of accounts that we transacted in our stores.
    Senator Feinstein. Now, can I assume that all 1.1 million 
were affected and notified, so somewhere in my record I should 
be able to find a record of having been notified?
    Mr. Kingston. We have notified all customers who shopped in 
our stores or on our Web sites, which is a greater number of 
customers than were affected in this 1.1 million number. We 
have notified all of those customers.
    Senator Feinstein. And when did you do that?
    Mr. Kingston. We did that on January 22.
    Senator Feinstein. Okay. And, Mr. Mulligan, when did you 
notify your customers? And how many did you notify?
    Mr. Mulligan. Senator, we notified--sorry, we refer to them 
as ``guests''--on December 19, four days after we found the 
malware. For those guests which we had email addresses for, we 
notified them by email. But given the scope, we thought it 
appropriate that broad disclosure was the best path to go, and 
so we had very broad disclosure through the media, on our Web 
site, through social media, a multitude of channels.
    Senator Feinstein. But you did not notify individual 
customers?
    Mr. Mulligan. We did not have specific contact information 
for all----
    Senator Feinstein. So you were depending on the public for 
your notice. Can you explain to me why--see, I document cases 
going back to 2003 and 2002. Nobody would notify. And I had a 
bill that was notification, and it was fiercely fought. 
Companies did not want to notify their customers. And I have 
worked on that bill. It is not going to go anywhere because of 
the notice provisions. So here we are, sort of, again with 
respect to notices.
    I believe that if somebody has an account or uses their 
credit at your institution and their data is breached, they 
should be notified so they can protect themselves.
    Do you want to respond to that? I do not mean to----
    Mr. Mulligan. No. We agree with your view completely, 
Senator. Our focus has been on having accurate and actionable 
information balanced with providing that notice as quickly as 
possible and ensuring that we had the capability to respond to 
what were going to be millions of requests for information.
    We felt, given the scope of our breach, that public 
dissemination was appropriate and would let all of our guests 
know virtually immediately. And as I am sure you are aware, we 
were on the front page of every newspaper in this country.
    Senator Feinstein. But here is the problem with that. The 
public notification is always vague. It is sort of non-
specific. You really do not know. And then you find out, kind 
of brutally, in other ways if you have money missing.
    Now, you happen to be retail establishments. In 2003, a 
hacker broke into electronic records of the payroll facility 
for California State employees, and some 265,000 Social 
Security numbers were compromised. Now, you said there was no 
compromise of Social Security numbers. But my point is those 
people deserve to know that their data was hacked. And this has 
been the big resistance out there in the commercial community 
in the 11, 12 years that I have worked on this. And so as far 
as I am concerned, any bill that is forthcoming from this 
institution should provide notification of customers that their 
data may have been breached so they can protect themselves.
    If anyone has a comment on that, if you disagree, please 
tell me. No comment?
    Mr. Kingston. We agree, Senator, which is why we did 
exactly as you said. Once we knew that we had criminal activity 
inside of our systems and who was impacted, we reached out 
individually to customers. In fact, we reached out to more 
customers just to be cautious, because it is important to us 
that our customers understand that this is our primary concern, 
their privacy and their information. And so all customers that 
shopped the entire year in Neiman Marcus stores and Web sites 
were notified.
    Senator Feinstein. I will go home and look for my notice. 
Thank you very much.
    Ms. Derakhshani. We also agree that notification is an 
extremely important aspect of this discussion, and as you 
indicated, the sooner consumers are made aware, the sooner they 
can take actions to protect themselves.
    Senator Feinstein. Thank you very much.
    Senator Hatch.
    Senator Hatch. Well, thank you, Senator.
    I know that many retailers are migrating toward secure 
point-of-sale terminals capable of processing chip-and-PIN 
transactions. Yet I have heard that some credit cards will only 
require chip and signature, not chip and PIN. Why would that be 
the case, especially when a chip-and-PIN credit card would be 
more secure for in-store purchases? Anybody who cares to answer 
that, I would just throw it to all of you.
    Mr. Mulligan. Senator, it is my understanding today the 
standards have been set for chip-enabled card technology. The 
chip-and-PIN standards are not set yet. We are advocates, as 
you mentioned, of getting to chip-and-PIN technology. We think 
that is a safer form. But we think also waiting, we think 
making the next step is important, and getting to a place where 
we have guest payment devices and retailers that can read chips 
and cards are issued with chips so that we can begin to migrate 
away from magnetic strips is an important next step.
    Senator Hatch. Okay. It is my understanding that chip-and-
PIN technology does not make online purchases more secure. In 
fact, the reports confirm that as Europe transitioned to chip-
and-PIN cards, fraud losses from online transactions actually 
increased at a greater pace. As chip-and-PIN cards make in-
store transactions more secure in the United States, how will 
you make online sales similarly secure, Mr. Mulligan?
    Mr. Mulligan. I think that is an excellent question, 
Senator, and I think, first, we need to not let the perfect get 
in the way of the good, so making progress in stores makes a 
lot of sense, and installing chip-and-PIN technology there, we 
think, is important.
    As you said, the threat continues to evolve, and so there 
is a shared responsibility here and continuing to have all 
parties that ensure payment transactions are processed 
appropriately here in the U.S. be participants in moving that 
forward to find solutions to the online transactions. We are 
part of the EMV Migration Forum, and that is a topic there 
where all interested parties in the payment space come together 
and discuss that, so that we can find solutions to online. But 
your point is right on.
    Senator Hatch. Okay. Thank you.
    Mr. Kingston, you said that credit card information was 
scraped. What about other information like birthdays and Social 
Security numbers? Did the hackers--were they able to get that 
information, too?
    Mr. Kingston. Senator, our investigation, which is still 
ongoing, has shown no evidence that other personal information 
outside of card holder information was scraped.
    Senator Hatch. Okay. Mr. Rosch, could you please describe 
both the advantages and the disadvantages or shortcomings of 
chip-and-PIN technology as well as any alternatives that may 
exist that are not currently being considered? As you know, 
chip-and-PIN technology itself is more than 20 years old. Are 
there more secure alternatives that we should be considering?
    Mr. Rosch. Well, I think we would agree with the other 
panelists and yourself that chip and PIN is definitely a step 
in the right direction. While it is not a panacea, it 
definitely adds three primary benefits to the ecosystem: One, 
it is more encryption. So the credit card information would 
stay encrypted longer, and it would make it much more difficult 
for the hackers to be able to obtain that information. So that 
is a big benefit of chip and PIN. The second is it makes it 
more difficult to duplicate the card. So if the information is 
stolen, sometimes with the regular magstripe, it is easy enough 
to go and create another credit card. The fraudsters can create 
another credit card. Because the chip in these cards have a 
unique credential, they cannot be copied, so it reduces the 
risk of multiple cards being generated. And then I think, 
third, with the PIN, that combines what we call two-factor 
authentication, when you have something you have and something 
you know, the card being something you have and the PIN 
something you know. So if someone was to actually steal your 
physical card, it would do no good unless they knew your PIN.
    So the three primary advantages, it definitely raises the 
bar on security.
    Senator Hatch. Okay. Now, I have a related question about 
so-called mobile wallets. Although companies like Google are 
just starting to roll out these types of products, I have no 
doubt that this technology that allows you to pay by simply 
tapping your smartphone at a register will be widespread in 
just a few years. Could you describe the security features of 
these payment platforms and whether chip-and-PIN technology is 
compatible?
    Mr. Rosch. Yes, I think we would agree with you that mobile 
payments are certainly going to be the future. It is still yet 
to determine exactly which of those different models that are 
out there will be the future, but I think it is important to 
note that when you use a mobile device, that is basically a new 
opportunity for the criminals to be able to attack. That 
broadens the attack surface. So there are a lot of good 
technologies that can lock down these devices and keep that 
information safe, and those things are in progress.
    Chip and PIN would not apply in that case. As you 
mentioned, it is really for card present when you have a swipe. 
But there are other ways using behavioral analysis to be able 
to fingerprint some of these devices and recognize a user that 
can add security in the mobile payments ecosystem.
    Senator Hatch. Thank you. My time is up.
    Senator Feinstein. Thank you very much, Senator Hatch.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Feinstein.
    As Chairman Leahy noted, these are good companies. We 
certainly know that in Minnesota, the home of Target. And we 
also know that if these companies can see these kinds of data 
breaches, these companies that employ so many people in our 
country, it can happen to anyone.
    And as Senator Feinstein expressed, a lot of times when we 
have pushed some of these cyber bills, whether it is about 
government security, whether it is about private security, we 
get a lot of pushback. And I think that, if anything, we have 
learned from this major, major breach that we can no longer do 
nothing, that we have to take action.
    And as a former prosecutor, of course, my first reaction to 
this is to find the crooks that did this and punish them, and I 
know that that investigation is continuing.
    My second reaction is that we have to find the technical 
solutions here and that our laws have to be as sophisticated as 
the crooks that are breaking them, and I start there.
    So I thought I would start with following up with what 
Senator Hatch talked about, which was this new technology that, 
I understand, is adopted in Europe. Is that true, Mr. Rosch?
    Mr. Rosch. Yes, it has been adopted in Europe, and it has 
showed some significant benefits.
    Senator Klobuchar. And is it true in Great Britain that 
they have seen a major decrease in these kinds of breaches?
    Mr. Rosch. They have seen a reduction in in-store or card-
present breaches. They have also seen, however, some of that 
shift to the online channel where the chip and PIN does not 
prevent that. But it has definitely helped in reducing fraud 
in-store.
    Senator Klobuchar. Okay. And so what is stopping us from 
moving to this kind of technology? We have acknowledged, as 
Senator Hatch has, that maybe there will be some other new 
great thing that comes along. But what is stopping our country 
when they are doing this in Europe? I know, Mr. Mulligan, that 
Target had attempted using this technology. I think--was it 
back in 2003? Is that right? And so what has stopped it from 
being rolled out on a major basis? And how can we change that, 
Mr. Mulligan?
    Mr. Mulligan. As you know, there are many participants in 
the payment card world that ensure transactions are processed 
appropriately in the U.S. As you said, we tried this in 2003. 
We put guest payment devices, as we call them, in our stores to 
read chips. We introduced a new payment card, a Target Visa 
card, with a chip in it. But without broad adoption, there is 
not significant benefits for consumers.
    Senator Klobuchar. And by broad adoption, you mean other 
retail outlets using the same card?
    Mr. Mulligan. Other retailer outlets having the ability to 
read that card as well as the cards being issued with chip 
technology on them. So it is both pieces of the payment 
industry need to move together simultaneously.
    We have been advocates of this, and all of us need to move 
together simultaneously. It is a shared responsibility.
    Senator Klobuchar. And how does this interact with the 
financial industry?
    Mr. Mulligan. The financial industry, obviously, they are, 
in general, the issuers of the cards, and so, again, in 
partnership with them, we need to move together collectively so 
that the whole system is employing chip-and-PIN technology.
    Senator Klobuchar. And would the NIST standard we were 
talking about before--that is in development. Is that right?
    Mr. Rosch. Yes, the NIST standard----
    Senator Klobuchar. How long has it been in development?
    Mr. Rosch. It has been in development for quite some time, 
but it is due to be released in a week.
    Senator Klobuchar. Okay. Like 20 years or----
    Mr. Rosch. No. Just more on a year time frame.
    Senator Klobuchar. Okay, good.
    Mr. Rosch. But it is due to be released next week, so we 
are making good progress.
    Senator Klobuchar. Okay. Well, that is good timing. And so 
would that cover this kind of new technology and it would set a 
standard for these companies? Or do we need to do something 
more aggressive to get the new technology out there?
    Mr. Rosch. I think the NIST standard does provide some 
guidelines and objectives for companies to follow. It is not 
specific in requiring chip and PIN.
    Senator Klobuchar. Okay. Did you want to add anything, Mr. 
Kingston or Ms. Derakhshani?
    Ms. Derakhshani. We are definitely supportive of chip-and-
PIN technology and of the efforts to--of any efforts to 
expedite wide adoption of this technology.
    Senator Klobuchar. Okay. And then I just want to go back 
quickly to something that was raised at the beginning, about 
the time in between when it was confirmed this malware was on 
the system and when the consumers found out about it. Mr. 
Mulligan, could you give me just the time in between the time 
it was confirmed and the time you notified customers?
    Mr. Mulligan. We confirmed malware on our systems on 
December 15, and we notified customers on December 19, Senator.
    Senator Klobuchar. And by ``notified,'' to make clear--this 
was Senator Feinstein's question--it was done publicly.
    Mr. Mulligan. Broad public disclosure, yes.
    Senator Klobuchar. Okay. And then, Mr. Kingston, what was 
your timeline?
    Mr. Kingston. We were first notified by our forensic 
investigators on January 2 that they saw suspicious malware. It 
was not until January 6 that they understood how it operated. 
And then we spent the next few days containing, disabling, and 
removing the malware, and it was on January 10 that we started 
notifying the public and customers directly.
    Senator Klobuchar. All right. And did both companies have 
policies in place on how you would do this consumer 
notification before it started?
    Mr. Mulligan. We have several crisis communications plans, 
and we enacted those immediately upon finding the malware in 
our systems.
    Senator Klobuchar. Okay. Mr. Kingston.
    Mr. Kingston. Yes, we do.
    Senator Klobuchar. All right. Very good. Well, I think you 
know Senator Leahy has a bill that is focused on some of these 
notification issues, but I continue--which I think is very 
important, and I think some of the issues Senator Feinstein 
raised are worth discussing. I also think that we really have 
to push on this technology, understanding some of the smaller 
retailers are going to have different situations than the 
bigger retailers. But if we want to fix this going forward so 
this just does not keep happening and happening--we just 
recently found out hotel chains are now being affected by 
this--we are really going to have to put something in place. So 
thank you very much for being here today.
    Senator Feinstein. Thank you very much, Senator Klobuchar.
    Senator Lee, Senator Hatch has asked to make just one small 
statement before I recognize you, if that is agreeable. Please 
go ahead.
    Senator Hatch. Well, thank you, and thank you, Senator Lee.
    Just an article that came up actually today, it starts off 
by saying, ``U.S. intelligence agencies last week urged the 
Obama administration to check its new health care network for 
malicious software after learning that developers linked to the 
Belarus Government helped produce the website.''
    I will just read two other sentences. `` `The U.S. 
Affordable Care Act software was written in part in Belarus by 
software developers under state control, and that makes the 
software a potential target for cyber attacks,' one official 
said.''
    And then, ``Cybersecurity officials said the potential 
threat to the U.S. health care data is compounded by what they 
said was an Internet data `hijacking' last year involving 
Belarussian state-controlled networks.''
    I just wanted to bring that up because this is a really 
serious set of discussions, and it goes far beyond just maybe 
what the retail community is concerned about.
    Thank you.
    Senator Feinstein. You are right, Senator. Thank you.
    Senator Lee.
    Senator Lee. Thank you, Senator Feinstein, and thanks to 
all of you for joining us today. This is an important topic. I 
know it is important to each of you and to America's consumers.
    I generally trust that the marketplace will create the 
right kinds of incentives for retailers to protect the personal 
data of their consumer base. But I think the creation of those 
incentives really requires, as a condition, precedent that 
there be adequate notification procedures in place. In other 
words, consumers, I think, have to have received notification 
in order for any of this to work. They have to receive 
notification in order to take the steps they need to take to 
protect their identity, and they also need notification so that 
they can decide where to take their business. If they do not 
trust a particular business with their data, they are not going 
to shop there.
    So I will start with you, Mr. Mulligan. What factors do you 
weigh in deciding at what point to notify consumers--
``guests,'' as you put it. I do not want to denigrate the 
Target consumer base by calling them just ``consumers.'' We 
have to call them ``guests.'' At what point do you decide to do 
that? Because there are some countervailing considerations, 
aren't there? I mean, you do not necessarily want to notify 
immediately upon discovering that there is a problem.
    Mr. Mulligan. Our view, Senator--and you are right. After 
18 years, it almost rolls off my tongue without thinking about 
it. But our view is there is a balance to be struck here. 
Certainly speed is very important to let consumers know what is 
going on, but balancing that, as we look through the lens of 
our guests, is ensuring that we are providing them with 
accurate information so they can understand what happened, and 
then actionable information so they can understand what to do 
about it. And balancing those two factors is the lens we look 
through, and that ultimately led us to our time frame.
    I would also add, for us in particular, given the magnitude 
and the size of our company, ensuring that we had the 
appropriate ability to respond to our guests, as we knew the 
questions were going to come, ensuring our call centers were 
staffed up and prepared with information for our guests, and 
that our stores were able to provide that information. So there 
was a large training element that also went on to ensure we 
were able to handle their questions and concerns appropriately. 
But all of that came together and balanced our decision making 
on how quickly to provide notification.
    Senator Lee. But it could cause problems if you notified 
too soon. If you notified before you know the nature and extent 
of the threat and before you know what you are going to do 
about it, that could cause issues.
    Mr. Mulligan. We believe it is important to provide 
accurate information once notification is made, Senator, yes, 
what has gone on and helping our consumers understand what to 
do about it.
    Senator Lee. Okay. Thank you.
    Mr. Kingston, one potential legislative response to all of 
this could involve establishing some kind of national security 
standard, to codify certain security standards, perhaps 
standards that are already accepted within the industry. I am 
always a little bit concerned about creating a new federal 
regulatory authority, in part because sometimes once you 
establish something like that, it quickly becomes ineffective, 
especially if it is in an area like this one where 
technological advances can very quickly render a codified 
national security standard irrelevant or outdated.
    There is also, I think, some risk that if we create a 
national security standard, that would be seen not just as a 
floor but as a floor and a ceiling, and you could see some 
people complying with that, and then that creates an easy 
target for would-be thieves to go after, because they know what 
the security standards are because they are codified in law. Do 
you see some risks associated with adopting federal legislation 
that codifies a uniform security standard?
    Mr. Kingston. I think there are going to inherently be 
risks for some of the reasons that you stated, Senator. I think 
the thing that we have to keep in mind is that the 
cybersecurity threat landscape continues to evolve. Every day 
it becomes more and more complicated. And so as soon as we 
establish the standards--and I think standards are helpful but 
as soon as we establish those, as you pointed out, the whole 
world knows about it and that gives them the ability to try to, 
as in our case, come up with ways to defeat those standards.
    I think it is obviously healthy to be able to communicate 
to people what some of the standards and good practices are. 
But I agree with you; I think there are risks there as well.
    Senator Lee. Okay. In the two seconds I have remaining, Mr. 
Rosch, I saw you nodding. Do you have anything you want to add 
to that?
    Mr. Rosch. Yes. I think it is not only that the cyber 
threats are evolving very quickly so it is difficult to lock 
things in; our environments are changing so quickly. If we look 
at what a company's infrastructure looked like five years ago, 
it was pretty much contained within their data centers and 
their devices. Today information is everywhere. It is in our 
data centers. It is in the cloud. It is in, you know, software 
that sits in the cloud on mobile devices. So the threats are 
exploding, but so is the attack surface. So we need to be 
flexible to be able to adjust, because both of those 
environments change.
    Senator Lee. Thank you very much.
    Thank you, Chair.
    Senator Feinstein. Thanks, Senator Lee.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    First of all, I think on those--Chairman Leahy has a bill 
that I am a cosponsor of that talks about having some 
standards, but I think you can write them in a flexible manner. 
And I see you nodding, Mr. Rosch.
    As some of you may know, I am Chair of the Subcommittee on 
Privacy, Technology, and the Law. I think the people have a 
fundamental right to privacy, and for me, part of that right is 
knowing that your sensitive information is protected and 
secure. And when millions of consumers have their credit and 
debit card data stolen, we have a big problem. We need to fix 
it.
    Minnesotans shop at Target all the time, as do millions of 
other Americans. Minnesotans shop at Neiman Marcus, too. We 
need to get to the bottom of these breaches.
    But what is clear to me is that we are not just dealing 
with the problem of Target and Neiman Marcus, or Michaels, for 
that matter. We are dealing with a systemic problem. A big part 
of that problem, as we have discussed, is the security of our 
credit and debit cards. The U.S. has one-fourth of the world's 
card transactions, and yet we are victims to half of all card 
fraud.
    Two weeks ago, I wrote to each of the Nation's largest 
credit and debit card companies to ask them what they were 
doing to make our cards safer, and their responses are due 
tomorrow.
    The Federal Government has a role to play here, too. 
Congress needs to pass laws that promote data security. Right 
now there is no federal law setting out clear security 
standards that merchants and data brokers need to meet, and 
there is no federal law requiring companies to tell their 
customers when their data has been stolen. And I am glad to say 
that Chairman Leahy has a bill that would fix this problem, and 
I am glad to be a cosponsor of it. And I think it contains 
enough flexibility that it is not a signal to how to overcome 
that to criminals.
    First I want to get a little better handle on how Target 
and Neiman Marcus had their breaches occur. Mr. Mulligan, 
retailers are on the front line when it comes to stopping the 
breach of their customers' data. I understand Target has spent 
considerable resources on data security systems. But a January 
17 article in the New York Times states that your systems at 
Target were ``astonishingly open'' and ``particularly 
vulnerable to attack.''
    I know that you had had independent audits before, a couple 
of them, saying that you had passed muster and you were among 
the best in the industry. Can you respond to these charges?
    Mr. Mulligan. Sure. Respectfully, Senator, we would not 
share that view. Over the past several years, we have invested 
hundreds of millions of dollars in several areas in technology 
to prevent data loss. This includes segmentation, malware 
detection, intrusion detection and prevention, data loss 
prevention tools, multiple layers of firewalls. But beyond 
that, as you said, we have ongoing assessments and third 
parties coming in doing penetration testing of our systems, 
benchmarking us against others, assessing if we are in 
compliance with our own processes and control standards. And we 
have invested in team. We have hundreds of team members 
responsible for this. We go so far as training 370,000 team 
members annually on the importance of data security. So we have 
taken a holistic view of our approach to data security and 
invested significant resources.
    Senator Franken. Okay. It is kind of spy versus spy, is 
what we are talking about.
    Mr. Mulligan. Yes.
    Senator Franken. You said in your oral testimony that you 
are for--and Senator Hatch brought this up--that you are for 
the smart chip plus PIN. And, Mr. Rosch, Visa and MasterCard 
are pushing to roll out smart chip cards in the U.S. in October 
2015. I wish that could be hurried. It is my understanding 
these cards will not require or may not require PINs for every 
transaction, and this is surprising to me because, as we have 
heard from you, the incidence of fraud is far higher for 
signature debit transactions than for PIN debit transactions. 
And maybe this is for Ms. Derakhshani. Is there a reason that 
Visa and MasterCard do not want to put the PIN in there?
    Ms. Derakhshani. So we are aware of the promises that have 
been made to implement the technology by 2015. I think the 
answer comes down to money. It is expensive to update the 
technology at the point of sale. It is expensive to reissue 
cards. So we would be supportive of efforts to encourage 
widespread adoption of these technologies, and we think that 
more of a push would be a good thing.
    Senator Franken. Mr. Rosch, could you follow up on that? In 
particular, do Visa and MasterCard have a reason?
    Mr. Rosch. Sure. I think that, you know, chip and PIN, we 
think, is the best and most secure solution.
    Senator Franken. Sure.
    Mr. Rosch. I think the chip on its own still does provide 
more advanced security around encrypting and preventing the 
cloning of the cards. The PIN is just an additional thing, and 
we think that is the way to go.
    Senator Franken. Okay. Thank you.
    Thank you, Madam Chair.
    Senator Feinstein. Senator Franken, it is my understanding 
it has been arranged that you chair. I must leave now.
    Senator Franken. Yes.
    Senator Feinstein. And I believe Senator Durbin is next.
    Senator Franken [presiding]. Yes. So go ahead, Senator 
Durbin. And I will move over to the chair. Senator Durbin.
    Senator Durbin. I believe under the early bird rule that 
Senator Coons is next.
    Senator Feinstein. It is not early bird. It was by 
seniority.
    Senator Durbin. Oh. Well, I am going to defer to Senator 
Coons.
    Senator Franken. As Chair, Senator Coons.
    Senator Coons. Thank you very much, Senator Durbin and 
Senator Franken.
    If I could just follow up on the line of questioning 
Senator Franken was on, first, I just want to thank all the 
witnesses because it is very helpful when you take the time to 
share with us the details of these incidents. And as we in 
Congress work hard to try and strike the right balance between 
a robust and a vibrant marketplace where we all benefit from 
the ease and the convenience of using credit cards and debit 
cards, but we also try to make sure we are sufficiently 
protected in our privacy and against theft and fraud. These are 
delicate balancing choices we have to make, and I think this 
has been very helpful for us to better understand standards, 
what is possible, what is desirable, and what it would cost and 
what the impact is.
    So if I could just continue, Ms. Derakhshani, does the 
Consumers Union believe that October 2015 is a reasonable 
deadline for the implementation of this chip technology?
    Ms. Derakhshani. I think we are supportive of efforts to 
expedite it even more quickly.
    Senator Coons. So you think it is possible for it to be 
done even more quickly, it is just a matter of cost?
    Ms. Derakhshani. Well, I would not be able to speak to the 
exact--you know, everything that it takes for it to be 
implemented. But we would like to see it be implemented more 
quickly.
    Senator Coons. And if I understand correctly, chip plus 
PIN, which is now possible, a PIN is possible in many debit 
card cases, and there is a sevenfold increase in fraud when you 
use debit cards without a PIN than when you use them with a 
PIN. Do you believe PIN technology ought to be enabled for 
credit cards as well?
    Ms. Derakhshani. That is an interesting question. We have 
spoken about the differences between debit card protections and 
credit card protections, and I think it would be a good thing 
for debit card--you know, you are less protected under debit 
cards, and it would be a good thing for debit card technology 
to come in line with credit card protection.
    Senator Coons. Mr. Kingston, do you have the option 
currently requiring customers who present a debit card at point 
of sale to input a PIN?
    Mr. Kingston. We do not use PIN pads in our stores 
currently, and we do not require PINs.
    Senator Coons. And just help me understand why not.
    Mr. Kingston. I think the issue that we are talking about 
here is that there are a lot of different technologies that are 
available, and this is something that right now in the industry 
consumers actually do not really have a lot of these cards in 
their wallet. I am a consumer. I have several credit cards in 
my wallet. None of them have chips on them. So while it is an 
option, it is something that just has not been widely adopted 
by the industry at this point.
    Senator Coons. But my specific question was about PINs on 
debit cards rather than chips, but I understand your point that 
the trajectory of cards with chips in them, the trajectory of 
that adoption is not easily predictable.
    A broad question, Mr. Rosch, if I might. You testified 
breach notification standards are not enough. Federal 
legislation is needed to ensure pre-breach security measures. 
Can you grade the sufficiency of the cybersecurity efforts 
currently in place by retailers? We have talked about data 
security and cybersecurity. If you could give us some insight 
into how the PCI compliance factor weighs in to cybersecurity.
    Mr. Rosch. Yes, it is a great question, and I think, you 
know, there are a lot of companies that have put in very 
effective security solutions and some that have a ways to go. I 
think the trick here is--we focus very much on chip and PIN, 
which is just one kind of potential breach point. What 
companies really need to do is look at very layered securities 
at every part of their ecosystems and ensuring good basics, 
like putting stronger authentication in place so bad people 
cannot get into the networks, into their companies and start 
laying the foundation for this threat. The more we can encrypt 
the data throughout its entire--as it traverses around, then if 
the bad guys do get it, they cannot decrypt it and it is of no 
value to them.
    We talk about anti-virus missing some of these things, and 
it does. Anti-virus is a great foundational technology, but 
there are things that we can do on top of that to recognize and 
stop some of these emerging threats.
    So it is really about putting this layered security 
approach, and we think any legislation should reflect those 
layers.
    Senator Coons. Thank you. My last question, if I might, to 
Mr. Mulligan and Mr. Kingston. Just if you would help us 
understand what are the key impediments that your companies 
face in trying to achieve this sort of more robust 
cybersecurity. Obviously it is expensive. But as you try to 
strike the right balance, whether it is guests or customers, 
those of us who enjoy shopping at your stores and enjoy the 
flexibility and freedom of having cards we can use anywhere 
also want to make sure that our data is protected and that we 
are not, as a country, subject to vast amounts of fraud.
    What are the major impediments to your companies actually 
implementing stronger cybersecurity measures?
    Mr. Mulligan. I can start. For us, we agree, layers of 
protection are important broadly across the entire enterprise. 
As we think about it, this is an evolving threat, and we think 
one of the keys going forward is, again, shared responsibility, 
to share information across the industry, not just retail but 
broadly across industry, and, you know, we have a history of 
doing that with law enforcement, but with other parts of the 
government, so that we can all understand the evolving threat 
and respond to it as we design our data security systems and 
protocols.
    Mr. Kingston. I talked earlier about the importance of all 
the actors in this ecosystem being able to share intelligence. 
As we have learned, these recent cyber attacks are very, very 
sophisticated. Things that have not been seen before are done. 
So I think that is one thing.
    I think the other thing that is really important is that 
all of the actors be able to adopt these technologies at the 
same time. So consumers obviously have to be able to adopt it, 
technology companies, financial institutions, and private 
sector as well.
    Senator Coons. Well, thank you. I do think there is a 
strong federal role here in ensuring strengthening 
cybersecurity and privacy.
    Thank you both to Senator Durbin and to Senator Franken. 
Thank you.
    Senator Franken. We actually are using the early bird rule, 
so you are the late bird. So we go to Senator Blumenthal.
    Senator Blumenthal. Thank you. Thank you all for being 
here. It is not easy to be the face of the industry which 
really bears a responsibility here for what I see as a record 
of failure. And this comment is not directed at Target or 
Neiman Marcus. It is directed at an industry, and I think you 
deserve a lot of credit for coming here today and representing 
that industry, and also for the steps that you have taken in 
the wake of breaches that certainly victimized you, and those 
measures include credit monitoring, insurance, measures that I 
sought for others in this industry and in other worlds to adopt 
voluntarily while I was Attorney General of the State of 
Connecticut and literally had to bludgeon and pummel them into 
doing--not physically but legally. And I just want to commend 
you for appearing here and for the proactive steps that you 
have taken.
    But I have introduced a bill that I think builds on the 
very good measures that Senator Leahy and Senator Rockefeller 
have introduced to establish standards so that there will be, 
in effect, a bar--a bar that everybody has to follow, a 
standard of care--because this information is not yours. It is 
entrusted to you. It belongs to the consumers. And that kind of 
basic principle is the bedrock of this legislation, a standard 
of care applied industrywide, and enforcement, because rights 
are not real unless they are enforceable--so enforcement by the 
FTC but also by consumers themselves, a private right of action 
for consumers to take when they are victimized, as your stores 
may be victimized, by those hackers, a standard of care 
enforceable by an individual right of action, and a 
clearinghouse so that you can share the kind of information 
everybody has said here this morning that is so important for 
you to be able to exchange among yourselves and help to be 
flexible and raise that bar. And I do agree that the standard 
has to be flexible. Right now we are talking about chip and 
PIN, but the threats are emerging and evolving, and so does the 
standard in its specifics.
    But, you know, I sit here with the attitude of most of your 
consumers, which is half the fraud occurs in the United States, 
but only a quarter of the credit card use. Something is wrong 
with this picture. Isn't that fact and the continuing series of 
significant, even sensational, breaches an indictment of the 
American retailing industry in its failure to protect consumer 
information? We are talking here, after all, not about some 
exotic, novel science fiction technology in chip and PIN? We 
are talking about something that is widely used in Europe and 
could easily have been imposed here much earlier.
    So my question to you, Mr. Rosch, in light of your very 
welcome and important recommendations--and you have had the 
good sense to make them somewhat simple in a graph that is 
understandable to us rudimentary laymen--would your 
recommendations have helped to prevent this kind of massive 
breach at Neiman Marcus and Target?
    Mr. Rosch. Yes, well, to start out, I am unable to speak 
about any specifics of the incidents. You know, all the 
evidence based on public information is that these were very 
sophisticated attackers and they were very well resourced. 
However, in general, we do believe that, you know, if companies 
put in this good layered security approach while leveraging the 
strong authentication, the encryption, the heuristics on top of 
AV, the chip and PIN, all these things would contribute to a 
safe ecosystem.
    Senator Blumenthal. That is basically a yes, it would have 
helped prevent--I am not asking you to go into the details, but 
network segmentation, two-factor authentication--and you also 
recommend the chip and PIN or something like it--would have at 
least helped to prevent this kind of massive breach.
    Let me ask you, gentlemen, Mr. Kingston and Mr. Mulligan, 
were you then in the process of adopting some of these 
recommendations or not knowing they were recommendations of 
Symantec but recommendations in substance like them? And if not 
then, are you now?
    Mr. Kingston. Senator, as I said in my written statement, 
we actually do have a multilayered security architecture and 
had prior to these attacks at Neiman Marcus. Many of the 
technologies----
    Senator Blumenthal. Was this information encrypted?
    Mr. Kingston. The information was encrypted during 
processing. Many of the technologies that are being discussed 
here today by the Committee--two-factor authentication, 
segmentation, network monitoring for suspicious traffic--these 
are all technologies that we have deployed and utilized at 
Neiman Marcus.
    Unfortunately, the sophistication of this particular attack 
was able to evade detection of all of those best practices, and 
I think what we have learned and what is important here is that 
just having tools and technology is not enough in this day and 
age. These attackers, again, are very, very sophisticated, and 
they have figured out ways around that.
    It is often how you are deploying those technologies and 
what else are you doing, which comes back to making sure that 
we are sharing intelligence as much as we can so that we can 
try to stay as close to or ahead of the attacks.
    Senator Blumenthal. Thank you. My time has expired, so you 
may be spared, Mr. Mulligan, an answer to that question. But I 
would like to ask both of you to provide perhaps some detailed 
answers in writing to the question about whether you are going 
beyond your present practices and procedures to adopt these 
steps that Symantec has recommended. I am not saying they are 
the only solutions, but just a kind of benchmark. And if you 
could provide that in writing, I would appreciate it.
    [The information referred to appears as a submission for 
the record.]
    Senator Blumenthal. I also want to say that my bill would 
provide for mandatory notification, and I also want to thank 
you for the notification steps that you did take, both of your 
companies took to notify consumers.
    Thank you very much, Mr. Chairman. Thank you, Senator 
Durbin.
    Senator Franken. Yes, just one. I know Mr. Mulligan did not 
answer on this, but Target, as Senator Klobuchar pointed out, 
10 years ago tried to implement the EMV technology and found 
that so few others were doing that that they abandoned that. 
But that is something I want to find out from the banks and the 
credit card issuers and debit card issuers about how fast they 
can go to this technology, because right now it is October 
2015.
    But let us go to Senator Hirono.
    Senator Hirono. Thank you. Following what appears to be the 
protocol on this side of the table, I would certainly be happy 
to defer to Senator Durbin if he would like to ask his 
questions.
    Senator Durbin. Mr. Chairman, I would like to defer to 
everyone except Senator Whitehouse.
    [Laughter.]
    Senator Hirono. Thank you.
    Senator Franken. I am the Chair of this Committee, and I 
will determine----
    [Laughter.]
    Senator Franken. But that is about right, okay. Senator 
Hirono.
    Senator Hirono. I would like to thank Target and Neiman 
Marcus for coming here today because I think all of us--most of 
us shop at both of these establishments. And there has been 
discussion about by 2015 Visa and MasterCard are required--
basically using the power of the--their power, to require that 
the merchants and banks agree to issue cards and you all have 
readers that will read cards with chips in them. So I take it 
that, Mr. Kingston and Mr. Mulligan, both of you are prepared 
to meet that deadline with the chip technology.
    Mr. Mulligan. Senator, we have been proponents of chip and 
PIN, as you just heard, for a very long time. We are in the 
process of rolling this out in our stores. Over 300 of our 
stores already have, we call them, ``guest payment devices,'' 
and we are accelerating that $100 million investment to get 
those in our stores by the fourth quarter of this year, and 
then the products we offer will have the chips in them early 
next year.
    Senator Hirono. Are you also prepared to adopt the PIN 
portion of what is being suggested?
    Mr. Mulligan. We are advocates for the PIN. As the industry 
in total becomes capable of handling that for credit 
transactions, we will be ready for that as well, as we are 
advocates of that as a double authentication.
    Senator Hirono. What about you, Mr. Kingston?
    Mr. Kingston. Senator, Neiman Marcus is certainly willing 
and will consider anything that is going to make this process 
and consumer information safer, including chip and PIN. As I 
pointed out earlier, at Neiman Marcus we do not use PIN pads 
today, and as a practical matter, I think it is important for 
the Committee to understand that while I think the industry 
would be safer with that, there is lots of work to do in order 
to make that happen. Obviously there are PIN pads that have to 
be able to process this. There are software changes that will 
have to happen. And, of course, all of the integration with the 
other actors, such as the banks and the merchant processors has 
to occur, and then finally, of course, getting all the cards 
with the chips in consumers' hands.
    I think we are very supportive of considering those and 
other technologies and capabilities that will make us safer, 
but I think we all need to understand that there is a lot of 
work involved in doing that.
    Senator Hirono. Well, what I heard is that Target is 
prepared to establish or go with both a chip-and-PIN 
technology, but you are raising some concerns. So does that 
mean that at Neiman Marcus you would not be able to meet a 2015 
deadline with both of these factors?
    Mr. Kingston. I am not saying that we are not prepared to 
do it. What I am saying is that we would definitely want to 
evaluate that as a safer measure for our customers and move as 
quickly as we possibly can to do that.
    Senator Hirono. Would federal legislation help if we were 
to say--because right now it is just Visa and MasterCard saying 
here is what is going to happen in the arena. Would federal 
legislation that says here is what we would like to see?
    Mr. Kingston. I think we would have to consider that. If we 
have to do it under the law, obviously we will follow the law.
    Senator Hirono. It may be coming down the pike. But, of 
course, we would want to have all the parties at the table so 
that we can proceed in a reasonable way. And, also, the cost 
was mentioned, and I do not know whether in the non-federal 
arena this cost was going to be borne by Target and Neiman 
Marcus and all the other retailers and financial institutions 
to comport with what MasterCard and Visa----
    Mr. Mulligan. It is a shared responsibility and a shared 
interest in payment processing, and the costs will be borne 
by--a portion of the costs will be borne by all participants.
    Senator Hirono. Including the consumers?
    Mr. Mulligan. No. It would be the companies involved in 
payment processing, Senator.
    Senator Hirono. So what would be the cost to implement this 
kind of technology? And perhaps Ms. Derakhshani can enlighten 
us on that.
    Ms. Derakhshani. Well, we think that it is very important 
for costs not to be borne by the consumer. Consumers have lost 
this information through no fault of their own. I think it is 
really important to remember that.
    Senator Hirono. So do you have any idea what the cost of 
putting in place a chip-and-PIN system would be?
    Ms. Derakhshani. I would be happy to maybe look into and 
get back to you all, but I do not have figures at this time.
    Senator Hirono. I know I am running out of time, but one of 
the areas that I was very interested in is the prevention side 
of things. Mr. Rosch, you mentioned that one of the first lines 
of defense is for the consumers to use different kinds of--that 
they should use certain kinds of PINs and all of that. How do 
we get this information out to consumers so that, as you say, 
they are the first line of defense in terms of prevention? What 
can we do to enable consumers to know that they can take some 
of these prevention elements into their own hands and protect 
themselves?
    Mr. Rosch. It is a great question. I do think that there 
are things that consumers can do around stronger passwords, 
changing them frequently, getting their credit reports, 
watching their bills. So I think we all have that shared 
responsibility to try to get that communication out. I know 
Consumer Reports is an excellent--makes excellent 
recommendations directly to consumers. We do that as part of 
our business. The Better Business Bureau has good 
recommendations, so I think it is just kind of that shared 
getting the news out there that these basic hygiene things can 
help keep them protected.
    Senator Hirono. I think that is very important aspect 
because, for a lot of consumers--and I am one of them. I am 
trying to simplify my life by just using very few passwords. 
You are suggesting the exact opposite, so I think that kind of 
information needs to get out and have consumers adopt the kind 
of suggestions you are giving.
    Thank you.
    Senator Franken. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    I want to return to those thrilling days of yesteryear, 
2010 and the Durbin interchange fee amendment on debit cards, 
where we basically finally asked publicly a question about 
something that was known to retailers across the United States, 
and not very well known to anyone else, and that was the amount 
that was being charged on each transaction by the card issuers 
and banks when a retailer used the card. And what the Federal 
Reserve reported to us was that the average was 44 cents on 
transactions; the actual cost to the card issuer and the bank, 
seven cents. So we asked them to find some reasonable fee, 
interchange fee, for debit cards, and the Federal Reserve came 
up with about 24 cents. I do not know exactly how they made 
that calculation. It is currently being litigated.
    Within that 24 cents, though, was one penny or one cent for 
fraud prevention, and it is ironic, or at least coincidental, 
that just weeks after this law was passed and signed by the 
President and implemented, we had an announcement by Visa that 
they were finally adopting a road map for chip card technology 
in the United States. They had a dedicated source coming off 
the interchange fee that they represented to the Federal 
Reserve was going to be an anti-fraud effort. So we are moving 
in that direction, albeit slowly, considering the circumstances 
we are talking about today.
    It is ironic--my staff had me cover the numbers, but it is 
ironic that I have had a chip card in my wallet with American 
Express for years, and I do not know that it has ever been used 
for any purpose other than this, but it is clear that it is 
there and it has been around for a while.
    So let me go to a study that came out recently in 2012. 
There was about $5.3 billion in credit and debit card fraud 
loss in the United States in 2012--$5.3 billion. One-fifth the 
payment card fraud loss has occurred with debit cards. The 
Federal Reserve found that in 2011 there were $1.38 billion in 
debit card fraud losses. The Fed said that card issuers bore 60 
percent of these debit card fraud losses, merchants 38 percent, 
card holders two percent.
    So, Mr. Mulligan, in light of that fact that fraud losses 
are divided among banks, merchants, and card holders, do you 
agree it is a shared responsibility to support this move toward 
new technology such as chip and PIN?
    Mr. Mulligan. We absolutely agree it is a shared 
responsibility among all participants in ensuring payment 
transactions happen that are facilitated in the U.S. today. All 
of us have an interest in ensuring that consumers or our guests 
have trust in the system that they are using every day. That is 
why we have been proponents of moving to chip and PIN over a 
very long period of time, and we are currently looking to 
accelerate our investment to bring those devices into our 
stores more quickly.
    Senator Durbin. You and I had a brief conversation when we 
met yesterday, and one of the aspects of this is the card 
reader, which retailers are responsible for paying for, right?
    Mr. Mulligan. Yes.
    Senator Durbin. So what is the--can you give me an idea of 
what the cost is of a card reader today versus chip and PIN?
    Mr. Mulligan. I do not know the incremental cost, Senator. 
What I can tell you is that the total investment for us is 
about $100 million. That is split about equally between putting 
card readers in our point-of-sale system and reissuing the 
cards with the chips in them, so about 50/50 percent.
    Senator Durbin. So let me get back to the original point. 
Retailers, and customers in many cases, are paying an 
additional one cent on every transaction for anti-fraud 
measures, so they are, in fact, giving the issuing banks and 
card companies basically a subsidy to have anti-fraud 
technology. So it is not as if we are not paying already to 
move this technology forward.
    Mr. Mulligan. The contractual arrangements provide for 
retailers to provide revenue into the system for the processors 
and the banks issuing those cards.
    Senator Durbin. And I am sure the recurring concern among 
members is the impact of new technology and cost of card 
readers on smaller retail establishments, which is something 
that we need to be sensitive to. But, in fact, the card issuers 
and banks are receiving money currently, if they are alleging 
to the Fed that they are using this money for anti-fraud 
purposes, they can be.
    Now, Ms. Derakhshani--did I pronounce that correctly?
    Ms. Derakhshani. Perfectly, yes.
    Senator Durbin. Thank you. There are lots of legislative 
proposals designed to address data breach. There are fewer 
proposals, however, that address the underlying issue: the 
collection of personally identifiable information and practices 
governing their retention by large brokerages and corporations. 
That is largely unregulated.
    We had a hearing a week or two ago here about the National 
Security Agency collecting our telephone information, literally 
phone numbers and what they are used for, and whether that was 
a breach of privacy. So the question I ask you: In an 
environment where sensitive consumer data is aggressively 
sought after by both good guys and bad guys, do you believe 
Congress should consider proposals that govern the collection 
and retention of personally identifiable information by private 
entities?
    Ms. Derakhshani. So we think of this as a separate issue, 
but you have touched on a lot of important things, among them 
the fact that there are a lot of threats out there, and we are 
really glad that there is attention brought to this important 
issue, and the issue of privacy and data security in general.
    Senator Durbin. Well, let us start with Mr. Rosch. I will 
bring you into the conversation.
    Mr. Rosch. Sure.
    Senator Durbin. So we are talking about how much regulation 
should there be on my personal information collected by a 
private sector entity.
    Mr. Rosch. I think that, you know, any data breach 
legislation should include proactive measures that companies 
can take to protect this information. That information should 
be any sensitive information, including personal about myself, 
my credit card information, about my financials. And, you know, 
having that good security approach end to end is important.
    I think it is also important that we are very transparent 
with users, that if we are going to collect their information 
for a particular business, legitimate business reason, that 
they are aware of that and they are fully aware of how we are 
going to use it, how any company would use it, and then when it 
is no longer needed, it is eliminated.
    So I think it is all these different layers, but it is 
definitely about, you know, giving guidelines on proactive 
measures to keep this information safe.
    Senator Durbin. So I guess I am trying to sort out, as I 
close here, who do we trust when it comes to our privacy. 
Clearly there is some skepticism if the government is 
collecting information about us, that it has more power than 
most to misuse it. But we are finding on the private side the 
collection of personal information can also be abused as well 
if we are dealing with malware and hackers and the like that 
can get into the system. And I think it is incumbent on us to 
really try to establish a standard so that Americans feel 
confident that their personal information is being protected in 
a reasonable fashion.
    Thank you.
    Senator Franken. Thank you, Senator Durbin.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you to 
all the witnesses.
    Let me ask Mr. Mulligan from Target, clearly you have a 
robust IT department. Correct?
    Mr. Mulligan. Yes, Senator.
    Senator Whitehouse. And clearly had robust Internet 
security?
    Mr. Mulligan. Yes.
    Senator Whitehouse. And yet you were unaware of this breach 
and were informed of it by the United States Secret Service. 
Correct?
    Mr. Mulligan. The Attorney General was the first notice, 
but yes, Senator, that is correct.
    Senator Whitehouse. I hope that for folks who are watching 
this is really seen as an object lesson as to the vulnerability 
that we all have to a whole variety of Internet penetrations. I 
think that Target is an extraordinarily well-respected retailer 
and does a very efficient business. And when a company like 
that can be hacked without knowing it, the wrong reaction is to 
say, ``Oh, well, Target must have done something wrong.'' The 
right reaction is to say, ``Oh, my gosh, are we being hacked 
and do we not know it, too? '' And I think we need to pay a lot 
more attention in that regard.
    As dangerous as this privacy breach was, as much as it is 
likely to lead to criminal activity in the form of identity 
fraud and other forms of fraud, we can thank God that you 
provided a vital service but you are not running the electric 
grid, and you are not running the servers behind all of our 
banks and our financial systems. There are pieces of our 
American critical infrastructure that are run by the private 
sector that are facing very much these same threats, and we 
need to be much more attentive to it. And if you are not doing 
intellectual property but if you have a--sorry, if you are not 
doing critical infrastructure but if you have significant 
intellectual property that is an important part of your 
business model, you better be watching out for that, too, 
because there are folks across the Pacific who are probably in 
your data already and who have a national policy of trying to 
break into American computers, steal our intellectual property, 
and give it to competitor companies in order to seek 
competitive advantage.
    So this is a window in a much larger problem, and I just 
wanted to make that point. I am sorry that it was you, but I 
think I am very gratified that you have had the courage and the 
sense of what is going on around you to come here and make this 
more transparent. And I will close with my appreciation to 
Symantec. We came very close to getting a very comprehensive 
piece of cyber legislation through the Senate not too long ago, 
and some of the U.S. Internet security providers, particularly 
Symantec and McAfee and Mandiant, were very, very helpful in 
classified private briefings, walking Senators through the 
scale of the problem and the scope of the problem, so that a 
momentum could be developed toward legislation. Unfortunately 
the U.S. Chamber of Commerce saw things otherwise and found 
ways to defeat the progress that we had made. But I hope that 
we can, nevertheless, continue to go forward because this is a 
continuing threat. And I think I just--I am seeing a nod from 
Mr. Rosch from Symantec. Yes, this is a continuing threat?
    Mr. Rosch. Yes, continuing and growing, and we are happy to 
work with you and others on making the ecosystem safer.
    Senator Whitehouse. Your effort was very important and much 
appreciated.
    Mr. Rosch. Thank you.
    Senator Whitehouse. Thank you, Chairman.
    Senator Franken. Thank you, Senator Whitehouse.
    I would like to thank this panel of witnesses. Thank you 
for your testimony and your answers. You are dismissed.
    Senator Franken. I would now like to call our second panel 
of witnesses.
    I am going to ask you to stand, so you might as well not 
sit down.
    I would like to ask the witnesses to raise their right 
hands. Do you swear that your testimony will be the truth, the 
whole truth, and nothing but the truth?
    Ms. Ramirez. I do.
    Mr. Noonan. I do.
    Ms. Raman. I do.
    Senator Franken. Thank you. You may be seated.
    Chairwoman Ramirez, a Commissioner of the Federal Trade 
Commission since 2010, was appointed Chairwoman of the FTC in 
March 2013. Prior to this, Ms. Ramirez was a partner in the 
office of Quinn, Emanuel, Urquhart & Sullivan, LLP, in Los 
Angeles, where she focused her work on matters of intellectual 
property, antitrust, and trademark issues.
    Mr. Noonan is the Deputy Special Agent in Charge for the 
Secret Service's Criminal Investigative Division, Cyber 
Operations. He has over 20 years of Federal Government 
experience. Throughout his career he has initiated and managed 
a number of high-profile fraud investigations.
    Ms. Raman is the Acting Assistant Attorney General for the 
Criminal Division of the Department of Justice. She has worked 
in the Criminal Division since 2008, where she previously 
served as the chief of staff. Formerly, Ms. Raman served as an 
Assistant United States Attorney in the U.S. Attorney's Office 
for the District of Maryland.
    Thank you all for joining us. You each have five minutes 
for any opening remarks you would like to make. Chairman 
Ramirez, would you like to begin?
    Oh, I am sorry. Excuse me. I would like to recognize the 
Ranking Member who has something he would like to say.
    Senator Grassley. This will not take more than 45 seconds. 
I am going to submit questions for answer in writing, but also 
I wanted to point out two very significant things that I want 
to discuss. One is unrelated to this hearing, but to Chairwoman 
Ramirez, I sent you a letter on the LP gas shortage in the 
Midwest. I just want to call to your attention I have not 
gotten an answer yet. If you could answer that, I would 
appreciate it.
    And then, related to this question, for Mr. Noonan, I will 
have a question on the fact that the morning Washington Times 
said that there was a Belarus company involved in writing some 
of the software for the health care reform act, and the extent 
to which that could be indicative of somebody having access to 
our records over here in the same vein that we have asked 
Target to respond to it.
    [The questions of Senator Grassley appear as submissions 
for the record.]
    Senator Grassley. Thank you very much.
    Senator Franken. Sorry I did not go right to you.
    Again, thank you all for joining us. Chairman Ramirez, 
would you like to begin?

  STATEMENT OF HON. EDITH RAMIREZ, CHAIRWOMAN, FEDERAL TRADE 
                   COMMISSION, WASHINGTON, DC

    Ms. Ramirez. Mr. Chairman, Ranking Member Grassley, and 
Members of the Committee, thank you for the opportunity to 
appear before you to discuss the Federal Trade Commission's 
data security enforcement program. I am pleased to be 
testifying here this morning with my colleagues from the 
Justice Department and the Secret Service.
    We live in an increasingly connected world in which vast 
amounts of consumer data are collected. As recent breaches at 
Target and other retailers remind us, this data is susceptible 
to compromise by those who seek to exploit security 
vulnerabilities.
    This takes place against the background of the threat of 
identity theft, which has been the FTC's top consumer complaint 
for the last 13 years.
    According to estimates of the Bureau of Justice Statistics, 
in 2012 this crime affected a staggering seven percent of all 
people in the U.S. age 16 and older.
    The Commission is here today to reiterate its bipartisan 
and unanimous call for federal data security legislation. Never 
has the need for such legislation been greater. With reports of 
data breaches on the rise, Congress needs to act. We support 
legislation that would strengthen existing data security 
standards and require companies, in appropriate circumstances, 
to notify consumers when there has been a breach.
    Legislation should give the FTC authority to seek civil 
penalties where warranted to help ensure that FTC actions have 
an appropriate deterrent effect. It should also provide 
rulemaking authority under the APA and jurisdiction over 
nonprofits which have been the source of a large number of 
breaches. Such provisions would create a strong, consistent 
standard and enable the FTC to protect consumers more 
effectively.
    Using its existing authority, the FTC has devoted 
substantial resources to encourage companies to make data 
security a priority. The FTC has brought 50 civil actions 
against companies that we alleged put consumer data at risk. We 
have brought these cases under our authority to combat 
deceptive and unfair commercial practices as well as more 
targeted laws such as the Gramm-Leach-Bliley Act and the Fair 
Credit Reporting Act.
    In all these cases, the touchstone of the Commission's 
approach has been reasonableness. A company's data security 
measures must be reasonable in light of the sensitivity and 
volume of consumer information it holds, the size and 
complexity of its data operations, and the cost of available 
tools to improve security and reduce vulnerabilities.
    The Commission has made clear that it does not require 
perfect security, and the fact that a breach occurred does not 
mean that a company has violated the law.
    Significantly, a number of FTC enforcement actions have 
involved large breaches of payment card information. For 
example, in 2008, the FTC settled allegations that security 
deficiencies of retailer TJ Maxx permitted hackers to obtain 
information about tens of millions of credit and debit cards. 
To resolve these allegations, the retailer agreed to institute 
a comprehensive security program and to submit to a series of 
security audits. At the same time, the Justice Department 
successfully prosecuted a hacker behind the TJ Maxx and other 
breaches.
    As this case illustrates well, the FTC and criminal 
authorities share complementary goals. FTC actions help ensure 
on the front end that businesses do not put their customer's 
data at unnecessary risk, while criminal enforcement help 
ensure that cyber criminals are caught and punished. This dual 
approach to data security leverages government resources and 
best serves the interests of consumers, and to that end, the 
FTC, the Justice Department, and the Secret Service have worked 
together to coordinate our respective data security 
investigations.
    In addition to the Commission's enforcement work, the FTC 
offers guidance to consumers and businesses. For those 
consumers affected by recent breaches, the FTC has posted 
information online about steps they should take to protect 
themselves. These materials are in addition to the large stable 
of other FTC resources we have for ID victims, including an ID 
theft hotline. We also engage in extensive policy initiatives 
on privacy and data security issues. For example, we have 
recently conducted workshops on mobile security and emerging 
forms of ID theft, such as child ID theft and senior ID theft.
    In closing, I want to thank the Committee for holding this 
hearing and for the opportunity to provide the Commission's 
views. Data security is among the Commission's highest 
priorities, and we look forward to working with Congress on 
this critical issue.
    Thank you.
    [The prepared statement of Ms. Ramirez appears as a 
submission for the record.]
    Senator Franken. Thank you, Madam Chairwoman.
    Mr. Noonan.

 STATEMENT OF WILLIAM NOONAN, DEPUTY SPECIAL AGENT IN CHARGE, 
CRIMINAL INVESTIGATIVE DIVISION, CYBER OPERATIONS BRANCH, U.S. 
                 SECRET SERVICE, WASHINGTON, DC

    Mr. Noonan. Good afternoon, Mr. Chairman and distinguished 
Members of the Committee. Thank you for the opportunity to 
testify on behalf of the Department of Homeland Security 
regarding the ongoing trends of criminals exploiting cyberspace 
to obtain financial and identity information as part of a 
complex criminal scheme to defraud our Nation's payment 
systems.
    Our modern financial system depends heavily on information 
technology for convenience and efficiency. Accordingly, 
criminals, motivated by greed, have adapted their methods and 
are increasingly using cyberspace to exploit our Nation's 
financial payment systems to engage in fraud and other illicit 
activities. The widely reported data breaches of Target and 
Neiman Marcus are just recent examples of this trend. The 
Secret Service is investigating these recent data breaches, and 
we are confident that we will bring the criminals responsible 
to justice.
    However, data breaches like these recent events are part of 
a long trend. In 1984, Congress recognized the risks posed by 
the increase use of information technology and established 18 
U.S.C. Sections 1029 and 1030 through the Comprehensive Crime 
Control Act. These statutes defined access to vice fraud and 
misuse of computers as federal crimes and explicitly assigned 
the Secret Service authority to investigate these crimes.
    It is a part of the Department of Homeland Security's 
mission to safeguard cyberspace. The Secret Service 
investigates cyber crime through the efforts of our highly 
trained special agents and the work of our growing network of 
33 Electronic Crimes Task Forces, which Congress assigned the 
mission of preventing, detecting, and investigating various 
forms of electronic crimes.
    As a result of our cyber crime investigations, over the 
past four years the Secret Service has arrested nearly 5,000 
cyber criminals. In total, these criminals were responsible for 
over $1 billion in fraud losses, and we estimate our 
investigations prevented over $11 billion in fraud losses.
    Data breaches like the recently reported occurrences are 
just one part of a complex criminal scheme executed by 
organized cyber crime. These criminal groups are using 
increasingly sophisticated technology to conduct conspiracy 
consisting of five parts: One, gaining unauthorized access to 
computer systems carrying valuable protected information; two, 
deploying specialized malware to capture and exfiltrate this 
data; three, distributing or selling this sensitive data to the 
criminal associates; four, engaging in sophisticated and 
distributed frauds using the sensitive information obtained; 
and five, laundering the proceeds of this illicit activity.
    All five of these activities are criminal violations in and 
of themselves. And when conducted by sophisticated 
transnational networks of cyber criminals, this scheme has 
yielded hundreds of millions of dollars in illicit proceeds.
    The Secret Service is committed to protecting our Nation 
from this threat. We disrupt every step of their five-part 
criminal scheme through proactive criminal investigations and 
defeat these transnational cyber criminals through coordinated 
arrests and seizure of assets.
    Foundational to these efforts are our private industry 
partners as well as our close partnerships with State, local, 
federal, and international law enforcement. As a result of 
these partnerships, we were able to prevent many cyber crimes 
by sharing criminal intelligence regarding the plans of cyber 
criminals and minimizing financial losses by stopping their 
criminal scheme.
    Through our Department's National Cybersecurity and 
Communications Integration Center, the NCCIC, the Secret 
Service also quickly shares technical cybersecurity information 
while protecting civil rights and civil liberties in order to 
allow organizations to reduce their cyber risks by mitigating 
technical vulnerabilities. We also partner with the private 
sector and academia to research cyber threats and publish 
information on cyber crime trends through reports like the 
Carnegie Mellon CERT Insider Threat Study, the Verizon Data 
Breach Investigations Report, and the Trustwave Global Security 
Report.
    The Secret Service has a long history of protecting the 
Nation's financial system from threats. In 1865, the threat we 
were founded to address was that of counterfeit currency. As 
our financial payments system has evolved from paper to 
plastic, now digital information, so too has the investigative 
mission. The Secret Service is committed to protecting our 
Nation's financial system even as criminals increasingly 
exploit it through cyberspace.
    Through the dedicated efforts of the Electronic Crimes Task 
Forces and by working in close partnership with the Department 
of Justice, in particular the Criminal Division and local U.S. 
Attorney's Offices, the Secret Service will continue to bring 
cyber criminals that perpetrate major data breaches to justice.
    Thank you for the opportunity to testify on this important 
topic, and we look forward to your questions.
    [The prepared statement of Mr. Noonan appears as a 
submission for the record.]
    Senator Franken. Thank you, Mr. Noonan.
    Ms. Raman.

STATEMENT OF MYTHILI RAMAN, ACTING ASSISTANT ATTORNEY GENERAL, 
    CRIMINAL DIVISION, UNITED STATES DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Ms. Raman. Good afternoon, Mr. Chairman and Members of the 
Committee. Thank you for the opportunity to appear before the 
Committee today to discuss the Department of Justice's fight 
against cyber crime.
    Cyber crime has increased dramatically over the last 
decade, and our financial infrastructure has suffered repeated 
cyber intrusions.
    The recent reports about the massive data breaches at 
Target, which the Justice Department is investigating alongside 
the Secret Service, have underscored that cyber crime is a 
real, present threat and one that is growing. Cyber criminals 
create botnets to systematically steal the personal and 
financial information of Americans, they carry out Distributed 
Denial of Service attacks on networks, and they steal sensitive 
corporate and military data.
    The Justice Department is vigorously responding to this 
threat through the work of the Criminal Division's Computer 
Crime and Intellectual Property Section, or CCIPS, which 
partners with U.S. Attorney's Offices across the country as 
part of a network of almost 300 Justice Department cyber crime 
prosecutors.
    In addition, the FBI has made combating cyber threats one 
of its top priorities, working through cyber task forces in its 
56 field offices, and continuing to strengthen the National 
Cyber Investigative Joint Task Force. Every day our prosecutors 
and agents strive to hold to account cyber criminals who 
victimize Americans using all the tools available to us to 
identify these criminals wherever in the world they are 
located, break up their networks, and bring them to justice.
    We are developing meaningful partnerships with foreign law 
enforcement and with industry to strengthen our collective 
capacity to fight and protect against cyber crime. And we use 
our tools responsibly and consistent with the important long-
established legal safeguards that protect against abuse.
    As just one example of our work in this area, just last 
week CCIPS, the U.S. Attorney's Office in Atlanta, and the FBI 
announced the guilty plea of a Russian citizen named Aleksandr 
Panin, who admitted to developing and distributing 
sophisticated malware called ``SpyEye.'' The SpyEye malware 
created botnets, or networks of secretly hacked computers, by 
surreptitiously infecting victims' computers, enabling cyber 
criminals to remotely control the computers through command and 
control servers. In that way, the criminals were able to steal 
personal and financial information such as credit card 
information, banking credentials, user names, and passwords. 
Panin offered and sold this botnet software, including 
specially tailormade versions of the malware, to at least 154 
of his criminal clients, who in turn used it to infect an 
estimated 1.4 million computers around the world. Panin will be 
sentenced in April.
    The Panin case is only the latest of our recent successes 
against cyber criminals. Others include, for example, a 15-year 
sentence handed down in September to a Romanian cyber criminal 
who led a multimillion-dollar scheme to hack into U.S. 
merchants' payment card data; an 88-month sentence handed down 
last April to a Russian hacker who used online forums to sell 
stolen credit and debit card information to purchasers around 
the world; and the indictment last year of a China-based 
manufacturer of wind turbines, which is alleged to have stolen 
trade secrets from an American company, causing over $800 
million in losses.
    But without the tools that we have been provided, we would 
not be able to bring such offenders to justice, and we must 
ensure that the statutes we enforce keep up with technology so 
that we can keep pace with the cyber criminals who are 
constantly developing new tactics and methods.
    The Administration is proposing several statutory 
provisions to keep federal criminal laws up to date.
    First, we recommend the establishment of a strong, uniform 
federal standard requiring certain types of businesses to 
report data breaches. Businesses should be required to provide 
prompt notice to consumers in the wake of a breach and to 
notify the Federal Government of breaches so that law 
enforcement can pursue and catch the perpetrators.
    Our prosecutors also rely on substantive criminal statutes 
to bring cyber criminals to justice. One of the most important 
of these is the Computer Fraud and Abuse Act, also known as the 
CFAA. The Administration proposed several revisions to the CFAA 
in May 2011, and we continue to support changes like those to 
keep federal criminal law up to date. We also look forward to 
working with Congress to address the CFAA's application to 
insiders, such as bank employees or government employees, who 
access computers in violation of their authorization and then 
steal or misuse the information contained in the computers.
    Finally, we recommend several statutory amendments, 
including a proposal to address the proliferation of botnets, 
which are described at greater length in my written testimony.
    I very much appreciate the opportunity to discuss the 
Justice Department's efforts to protect American citizens by 
aggressively investigating and prosecuting hackers. We are 
committed to using the full range of investigative tools and 
laws available to us to fight these crimes and to do so 
vigorously and responsibly.
    Thank you for the opportunity to discuss the Department's 
work, and I look forward to answering your questions.
    [The prepared statement of Ms. Raman appears as a 
submission to the record.]
    Senator Franken. Thank you all.
    I think we will go to Senator Klobuchar. Since I am 
chairing this, I will be here to the end, so I can ask my 
questions at the end. Senator.
    Senator Klobuchar. Okay. Very good. Thank you very much. 
Thank you all for coming today.
    I think while we all know why we are here with the breaches 
that we have seen and we just heard about with the last panel 
at Target, Neiman Marcus, and Michaels, now hotel chains, are 
there any other similar breaches that have occurred? Do you see 
industries that are more targeted than others? And, Ms. 
Ramirez, how successful has your agency been in getting 
criminal hackers extradited from foreign countries? And what 
challenges do you see when dealing with extradition issues?
    Ms. Ramirez. Let me start by answering your initial 
question. I cannot speak about any particular companies or 
breaches. We cannot disclose information relating to non-public 
investigations. But what I can tell you is that the FTC has 
been very active in this area, having just announced last week 
our 50th data security case.
    We believe that the FTC's action has had an important and 
sent an important signal to the marketplace, but based on the 
information that we have available to us, including the Verizon 
Data Breach Report, which Mr. Noonan referenced in his opening 
remarks, by those indications it is clear that companies need 
to do a lot more, that they continue to make very basic 
mistakes when it comes to data security, so this is an area 
where the Federal Trade Commission unanimously believes there 
needs to be congressional action and, in particular, a strong 
federal law that imposes robust standards for data security and 
also for breach notification.
    Senator Klobuchar. So this is what we have been talking 
about earlier with the NIST standards and then taking this out 
with the chip and PIN and those kinds of things. Is that what 
you are talking about?
    Ms. Ramirez. At the FTC we do not advocate for particular 
technologies. We rather take a process-based approach in light 
of the fact that the threats, as were identified in the prior 
panel, are constantly changing and evolving. So we recommend a 
process-based approach to attacking this problem.
    Senator Klobuchar. Okay. The extradition question, the 
reason I asked that is I think we already have learned that a 
young Russian already claimed to be co-author of the malware 
used in the attack with Target, and I think we know there is no 
shortage of these crimes internationally. I wonder if the U.S. 
should be asking that.
    Ms. Ramirez. I will defer on that question to my colleagues 
and the criminal authorities who are dealing with those issues.
    Senator Klobuchar. Okay.
    Ms. Raman. You point out one of our extraordinary 
challenges in cyber crime cases, and that is that some of the 
most notorious hackers are living halfway across the world, and 
sometimes in countries with which we do not have extradition 
relationships. And so that is a challenge that we have in a 
number of these cases. We try to be as creative as we can to 
ensure that we are able to catch the wrongdoers, and we have 
had significant success. The Panin case that I just mentioned 
in my opening statement is an example of a success, a Russian 
hacker who had developed the SpyEye malware, and he pleaded 
guilty just last week. And we have had numerous such successes. 
Sometimes it just takes patience.
    Senator Klobuchar. OkayK. Mr. Noonan.
    Mr. Noonan. Yes, ma'am, the Secret Service has had a unique 
success in this field. We have been able to arrest and 
extradite a number of significant cyber criminals abroad with 
the help of the Department of Justice, the Office of 
International Affairs, and the State Department. Just to name a 
few, the Dave and Buster's intrusion happened in 2007, we were 
successful in arresting Maksym Yastremskiy, and in that 
intrusion we also actually arrested and extradited Aleksandr 
Suvorov. In the Carder.su case that we had in 2007, we were 
successful in extraditing Sergei Litvinenko. There are a number 
of other successes that we have had of high-value targets, of 
high-value hackers that have been attacking our financial 
infrastructure that, with the assistance of international law 
enforcement and relationships, we have been able to arrest 
those people and bring them to justice here domestically.
    Senator Klobuchar. You know, one of the things we talked 
about earlier was the time between the companies confirming the 
breaches and then letting customers know and how quickly they 
can find out what their policies are. And I assume, Ms. 
Ramirez, that you would want that to happen as soon as 
possible. But one of the questions I want to know, having been 
in this law enforcement before, there is also this thing where 
you want to catch people. And I would think when a data breach 
is this big, you come down on the side of letting the public 
know immediately. But how do you strike that balance with 
putting information out there but then also trying to find the 
perpetrators and not tipping them off? Anyone can answer.
    Ms. Ramirez. Let me, if I may, start off the discussion on 
this point. ``Balancing'' is exactly the right word. In our 
view, a company should notify affected consumers as reasonably 
practicable as possible. In other words, there should be enough 
time for the company to assess the relevant breach, examine 
exactly what took place, which customers were affected. But we 
think that it is important that customers be notified 
reasonably promptly, and we believe that the outside limit for 
that ought to be 60 days.
    At the same time, I will also note that when the FTC is 
looking at these issues, we do coordinate very closely with 
colleagues at the Department of Justice and Secret Service and 
also at the FBI. And so if there is a need for there to be 
certain delay due to the needs of these criminal 
investigations, we think that that is also appropriate.
    Senator Klobuchar. Okay.
    Mr. Noonan. Yes, ma'am, it is a coordinated effort actually 
between the Secret Service, our law enforcement, and the U.S. 
Attorney's Office as well. But it is very important for us in a 
timely manner to take what we know from an investigation as far 
as the cybersecurity pieces of that, and then to get that and 
share it out to greater infrastructure. We use the Department 
of Homeland Security's NCCIC, which is the National 
Cybersecurity Communications and Integration Center. We take 
information that we learn from the malware and hacking tools 
and such. We share that with the NCCIC, who then does some 
reverse engineering, and they are able to push that out to the 
greater infrastructure.
    We also partner through our Electronic Crimes Task Forces--
we have 33 of those--in which we are able to take that same 
type of information and put it out to our trusted partners that 
are out in the community, out in the infrastructure, as well 
and we also partner with various ISACs. Specifically in the 
lane of financial services, we partner with the FS-ISAC to get 
that information out to the industry, to be able to assist them 
in finding and mitigating what other attacks may be happen to 
themselves.
    Senator Klobuchar. Okay.
    Ms. Raman. Going back to your original question, we do 
believe that the Administration's data breach notification 
proposal allows the flexibility that would allow us to delay 
consumer notification in small increments if there is a law 
enforcement reason for that. There may be an undercover 
operation that is necessary or other covert investigative steps 
that can be taken immediately after a breach, and there may be 
certain circumstances where delayed notification is 
appropriate.
    But that being said, we do believe that prompt notification 
to consumers is important and prompt notification to law 
enforcement is important.
    Senator Klobuchar. Thank you very much.
    Senator Franken. Thank you, Senator Klobuchar.
    Senator Whitehouse.
    Senator Whitehouse. Thank you again, Chairman.
    Let me address myself briefly to the two law enforcement 
witnesses who we have here. The theft of intellectual property 
from American corporations purely across cyber networks by 
hacking into corporate networks and exfiltrating their data has 
been described on multiple occasions as ``the greatest illicit 
transfer of wealth in history.'' Has any indictment yet 
resulted from that conduct, foreign hackers purely through 
cyber networks hacking into an American corporation's 
intellectual property and exfiltrating it for competitive 
purposes?
    Ms. Raman. Well, I will say, Senator, that the threat that 
you described is one that we are very aware of and we are 
focused on. Last year, there was an----
    Senator Whitehouse. Has there been an indictment of anyone 
in such a case?
    Ms. Raman. Last year, in a similar case, there was an 
indictment of Sinovel Corporation and about five of its 
executives--that is a Chinese corporation and five of its 
executives--for stealing the proprietary information of an 
American company.
    Senator Whitehouse. How had they stolen it?
    Ms. Raman. I am sorry?
    Senator Whitehouse. How had they stolen it? Was it through 
a cyber hack? Or did it involve human----
    Ms. Raman. A combination, but also an insider at the 
American company.
    Senator Whitehouse. Yes.
    Ms. Raman. But I think that kind of case, where it would 
show that we are willing to indict a Chinese company and 
Chinese nationals, including the insider here, shows our 
resolve to get to the bottom of these issues.
    Senator Whitehouse. Actually the numbers involved show 
anything but resolve, and I hope that there will be more 
attention paid to this. And I say this with full appreciation 
of how very, very challenging and difficult these cases are, 
from a forensic point of view, from locating the foreign 
defendant point of view, from an interference with intelligence 
and diplomatic relations point of view, from a security point 
of view. I mean, there is a whole array of reasons that these 
are immensely difficult and complicated cases. But when we are 
on the losing end of what has been on multiple occasions 
described as ``the greatest illicit transfer of wealth in 
history,'' I think one case that actually was not that, because 
it involved a human exchange as well, just is not an adequate 
response. So I urge you guys to improve your game on that, and 
if you are getting pushback from the intelligence communities 
and from the State Department and other people, push back 
harder, because I think an indictment has a clarifying effect.
    The other thing that has come up recently has been that 
Chairwoman Mikulski of the Appropriations Committee, who is 
also the Chairman in charge of your appropriations at the 
Subcommittee level, has put into the omnibus spending bill that 
we just passed a requirement that the Department of Justice 
provide a multiyear strategic plan for cyber within 120 days. 
That is not a long window. It is going to require the DOJ, the 
FBI, the Secret Service, probably folks within FEMA and 
Homeland Security, and certainly OMB, without whom no budget-
related discussion is possible, to get together and start to 
figure out what we look like three, four, five years out, 10 
years out, in terms of the structure.
    We have the FBI deeply involved in this, and we have the 
Secret Service deeply involved in this. We have two different 
sections of the Department of Justice separately involved in 
this. The different programs that we enforce and the different 
strategies seem to be changing every six months or so as I have 
pursued this. I think a lot of that is necessary and reflects a 
sensible and good adaptation to an emerging threat.
    But I think that we are a long way from having a clear 
sense of what our cyber law enforcement structure should look 
like. We are still, I think, evolving, and it has been hard for 
me to find any place in which the thinking about what it should 
look like three or four or five years out is taking place.
    So could you give me a moment on what you are doing right 
now to respond to the 120-day requirement for a multiyear 
strategic plan?
    Ms. Raman. Well, we are very aware, Senator Whitehouse, of 
the 120-day requirement, and thankfully, even before that 
requirement was put into place, we had been endeavoring for 
several months to go through the exercise of putting on paper a 
strategy for the Justice Department's cyber program. That 
involves some of the issues that you have already touched on, 
which is how we integrate all of our various capabilities.
    I think that the way that the responsibilities are divided 
now, which is the Criminal Division, the National Security 
Division, and the FBI, works well together, and the reason that 
we are able to work well together is that we communicate 
literally on a daily basis, sometimes an hourly basis, about 
how to respond to particular threats.
    But, together, I am certain that we will be able to comply 
with the 120-day requirement. We have been working on it, and 
we will continue to work to meet that deadline.
    Senator Whitehouse. Good. Well, I am very glad that you 
work well together. I would hazard the thought that working 
well together and having the proper administrative structure 
are two different questions. And I would offer as an example 
the challenge of trying to get the civil botnet takedown 
capability, which the Department has demonstrated on several 
occasions, properly integrated into the criminal and national 
security and intelligence elements of this. I think it is a 
bigger challenge than just having people work well together.
    Ms. Raman. I agree with you, Senator. On the botnet 
capabilities that we used in the Coreflood takedown, that was 
civil authority, but the Criminal Division, along with the U.S. 
Attorney's Office in Connecticut, used those civil authorities, 
and we were able to do so because of the specific way that 
botnet was structured. But botnets are high on our list of 
priorities. We know that every botnet is different, and we know 
that behind every botnet is an individual or individuals. And 
so we are focused both on getting those individuals and finding 
ways, creative ways, to dismantle botnets.
    Senator Whitehouse. Good. My concern was that it is my 
understanding that after the Coreflood botnet takedown, the 
group, the kind of ad hoc group from different organizations 
and the U.S. Attorney's Office and Main Justice that had gotten 
together to accomplish the Coreflood botnet more or less 
disintegrated back into their original positions, and that 
there is not a robust and integrated ongoing administrative 
structure for integrating those botnet takedowns. They seem to 
be more episodic and to grab people from out of the Department 
for that one event, and then they got a big award from the 
Attorney General--which they merited. I was delighted that that 
happened. But then I think the structure of it evaporated or 
disintegrated.
    So the structure question, I think, is one we can continue 
to work on. Thank you.
    Senator Franken. Thank you, Senator Whitehouse, for your 
continued focus on cybersecurity.
    I have a question for either Mr. Noonan or Ms. Raman. Can 
you walk me through how a criminal could go about harvesting 
the data on a magnetic stripe card and how they go about using 
and selling that data once it is stolen?
    Mr. Noonan. Yes, sir. If we are talking about the 
intrusions that we are here today to discuss, it is generally--
it is not one criminal we are talking about. We are talking 
about a sophisticated network of cyber criminals. I use the 
analogy sometimes the movie ``Ocean's Eleven.'' This is an 
organization that has specific skills when brought together, so 
they will have their person that is looking for access in the 
systems. They will have their people that are controlling the 
bulletproof hosting system. They will have people that are 
working on extracting the information from the network. They 
will have wholesalers and vendors of that data. And then 
ultimately there will be end users that take the data, use it 
on a street level through either making counterfeit credit 
cards and going into retail stores, buying goods and fencing 
that. And then there is a money-laundering system as well in 
this.
    I think it is also important to understand that we are not 
talking about currencies here. We are talking about virtual 
currencies in which a lot of this money is moved, so in the 
criminal underground, they are moving their money back and 
forth through virtual currency, which is hard for U.S. law 
enforcement and for others in the government to be able to 
trace and track those finances.
    Ms. Raman. I agree with that description. I think the 
additional element I would add is that oftentimes after there 
is this kind of harvesting of personal information through the 
use of malware, often through botnets, the stolen information 
is then sold in carding sites around the world and to other 
criminals who may use it for their own financial profit, 
sometimes for other purposes. And so that is also another chain 
in the threats that we are seeing.
    Senator Franken. It sounds like there is real justification 
for putting the RICO piece in Chairman Leahy's bill, that this 
is coordinated organized crime.
    Right now the information on most cards in the United 
States is static. It stays the same until the card is canceled. 
What does that mean for criminals wanting to make counterfeit 
cards? It will make it easier and more effective.
    Mr. Noonan. Sure, so your question is that it is static 
data that is coming across?
    Senator Franken. Yes.
    Mr. Noonan. Right. You have got to understand that the 
magstripe data is roughly 30-year-old technology, so I would 
agree with the fact that a 30-year-old technology is perhaps a 
little bit more easy for them to utilize and put on to readily 
available magnetic cards or magnetic stripe cards that are 
available in industry today.
    Senator Franken. We have been talking today about going to 
the EMV technology and going to the EMV with a PIN. Do you all 
agree here that that would be extremely helpful?
    Mr. Noonan. We believe that anything that would assist in 
the security of our Nation's payment systems would be a benefit 
to the industry, of course.
    Senator Franken. Okay. Thank you.
    Chairwoman Ramirez, when a company has really poor digital 
security practices, the FTC can initiate an enforcement action 
against the company for committing what is called an ``unfair 
trade practice,'' and the Commission has used this authority 
admirably in the past. At the same time, there is no 
comprehensive federal law that sets up a data security standard 
for companies that store data, the data of tens of thousands of 
customers.
    Do you think that the Commission's existing authority in 
this space precludes the need for a federal data security and 
data breach law?
    Ms. Ramirez. No, I do not. We have used our authority under 
Section 5 of the FTC Act barring deceptive or unfair commercial 
practices, and we think we have used that authority 
effectively. But I think we could be even more effective in 
this area if there were a federal data security law that the 
FTC could enforce. And, in particular, we think there are three 
areas where we could use additional authority. We would like to 
see legislation that would give the FTC civil penalty 
authority. We think this would enable us to deter more 
effectively. We also believe that we need jurisdiction over 
nonprofits. We have found that a number of breaches occur at 
nonprofits, and currently we lack authority over nonprofits, so 
that is a gap that we would like to see filled. And, in 
addition, in order to implement a data security law 
effectively, we believe that it would be appropriate to give 
the FTC APA rulemaking authority to enable us to deal with the 
evolving risks and harms that one sees in this area.
    Senator Franken. Well, thank you. This is why it is so 
important that we get to data privacy legislation. I look 
forward to doing that.
    I want to ask one--and then I see Senator Blumenthal has 
arrived, is back. This is a little unrelated, but it is 
something I have been interested in. Ms. Raman, in your written 
testimony you said that the Department could use better tools 
to go after the operators of cell phone spy software. This 
software is a huge problem. Every year tens of thousands of 
women are stalked through the use of what are called ``stalking 
apps.'' These are apps specifically designed to facilitate 
stalking. An abuser will install one of these apps on a 
victim's phone and be able to track her whereabouts at all 
times. We have received testimony, my Subcommittee, on this 
time and again.
    These apps can be found within minutes through a Web 
search. One is called ``FlexiSPY.'' It brags, ``FlexiSPY gives 
you total control over your partner's phone without them 
knowing it. See exactly where they are, or were at any given 
date in time. Buy now and start spying on a cell phone in 
minutes.''
    Another is called ``SpyEra.'' It says, ``The target user is 
never interrupted from what they're doing and won't notice a 
thing . . . . You'll not only know what is being said and done, 
but you'll also know exactly when and where.''
    I have a privacy bill specifically aimed at shutting these 
apps down, and so I want to work with you to give you all the 
tools that we need to do that. So can you and I work together 
on this?
    Ms. Raman. Absolutely. We appreciate any support that you 
can give us in this area. As you describe, it is an incredibly 
frightening capability. We are focused on the criminal threat, 
but one of the tools that we think could be helpful in our 
fight against this kind of software is civil authority to 
forfeit proceeds of the crime, and we would be happy to speak 
further with you and your staff about those particulars.
    Senator Franken. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Franken.
    Thank you all for your great work in this area, and thank 
you, Chairman Ramirez, for your focus and your interest in 
additional authority, which I agree is important. I think the 
FTC has broad authority now to impose some rules and take some 
enforcement action when there has been a failure to impose 
sufficiently stringent safeguards to protect consumer 
information, but certainly clarifying that authority and 
expanding it in the ways you have suggested makes a lot of 
sense. And, in fact, I have just introduced a bill that would 
provide for rulemaking authority, but also stiff penalties, and 
possibly even stringent penalties if the Congress would go 
along with them, because I think that the potential damage to 
consumers is so horrific from identity theft and associated 
wrongs that emanate from these hacking and abusive activities.
    It also provides for mandatory notification, a 
clearinghouse, and, in my view, very importantly, a private 
right of action as well as jurisdiction for Attorneys General 
to enforce these rules.
    What do you think about a private right of action and the 
authority of Attorneys General to impose these rules?
    Ms. Ramirez. The Commission has not taken a position on the 
issue of a private right of action, but as regards concurrent 
State enforcement, we believe that that is absolutely critical. 
The States have done very important work in this arena, and we 
think it is vital for them to continue to be involved.
    Senator Blumenthal. What has been the reaction of 
nonprofits? Have they been ahead of the for-profit sector or 
behind?
    Ms. Ramirez. Well, I think we see problems amongst all 
companies, including nonprofits, and that is an area where we 
currently lack jurisdiction, and we think it is a gap that 
needs to be rectified so that we do have jurisdiction. But as I 
mentioned earlier, the data that we have available today--and I 
specifically referenced the Verizon Data Breach Investigation 
Report that is issued annually. It continues to indicate that 
companies need to do a lot more in this area, that very 
fundamental mistakes are being made when it comes to data 
security. And so that signals to me that action, further 
action, needs to be taken. And, of course, this is a very 
complex problem, multifaceted problem that requires a 
multifaceted solution.
    Senator Blumenthal. Am I right in thinking that the United 
States is behind a lot of the rest of the world in its data 
security safeguards? We heard testimony earlier about the lack 
of use of chip-and-PIN methodologies, which is now prevalent in 
Europe, and maybe the lack of use of it here is a reason not 
only for the Neiman Marcus and Target breaches, but also for 
the fact that almost half the world's credit card fraud occurs 
here but only a quarter of credit card use. So there seems a 
disparity that indicates we are behind the rest of the world.
    Ms. Ramirez. Let me say that while at the FTC we do not 
prescribe or recommend particular technologies, it is of 
concern to me that our payment card systems really do need 
improvement. So in my view, more work can be done in that area. 
It is absolutely critical from my perspective that payment card 
systems be secure and protect consumer information, and I 
really think it is important that all of the players in the 
ecosystem--retailers, banks, payment card networks--all work 
together to find solutions.
    Senator Blumenthal. Any of the other witnesses have 
perspectives on these questions?
    Mr. Noonan. Yes, sir, I have a perspective in the fact that 
you can come up with devices that will secure credit card data, 
but it does not alleviate the fact that we are talking about it 
is still criminals that are doing it. These criminals are 
motivated by money. They are financially motivated. They are 
going to use whatever they have at their disposal to still go 
after the pot of gold which is held in the payment card systems 
piece.
    So it does not take away the criminal element, but it does 
add a layer, potentially could add a layer of security. So I 
just wanted to make the point that, again, when we are talking 
about the criminal element, it is law enforcement and the work 
that is being done between the Department of Justice and law 
enforcement that is going at the criminal to try to take them 
and put them behind bars, taking the virtual world and making 
it reality with handcuffs, if you will.
    Ms. Raman. I agree that securing data is obviously 
incredibly important for all American consumers. From a law 
enforcement point of view, anything that strengthens our 
ability to secure that data is a good thing. It makes our--
frankly, it makes us less necessary if there are fewer breaches 
and if there are fewer attempts to try to get at sensitive 
data. But that having been said, Mr. Noonan is absolutely 
right. Malware adapts every day. Botnets adapt every day. 
Criminals are early adopters of almost every kind of 
technology, and our challenge is to stay ahead of them.
    Senator Blumenthal. Well, there is an arms race. There 
always has been, not only in this area but in so many others. 
Having done a bit of law enforcement work myself, both federal 
and State, I am well aware that there will never be the 
foolproof safeguard or the impenetrable lock on the door. But 
if you leave the door completely unlocked, it is almost an 
invitation to the bad guys. And I do not want to say we have 
left the door unlocked in the retail industry, but certainly 
the locks are a lot less sophisticated than the technology 
available would provide. And you may not have been here 
earlier, but I think that the industry--or maybe I should say 
industries--have some real soul searching to do about whether 
they have been sufficiently protective of consumer information, 
because as we know, you can apprehend, investigate, prosecute 
criminals, but rarely does that compensate them when they are 
victims of identity theft. And that is just the stark, tragic 
fact of the matter, that preventing these crimes is often the 
only way to really protect consumers, because you can prosecute 
them, if you can apprehend them and investigate them. We are 
talking about global criminal activity here. But the victims of 
identity theft are often really marred and scarred for life.
    So, you know, I respect your point of view, but I do think 
that stronger preventive action that would come with rulemaking 
authority, stiffer penalties on the retailers which provides an 
incentive to do the right thing I think are very much needed.
    Thank you all. Thank you, Mr. Chairman.
    Senator Franken. Thank you, and thank you all. I think 
following up on what Senator Blumenthal just said, today's 
hearing has made it clear that we are dealing with a systemic 
data security problem in this country, and we received 
testimony in the first panel that our credit and debit cards 
just are not secure enough, and we have no federal standard for 
data security and breach notification. We have to update our 
card technology and our laws to address these 21st century 
threats to our data security. When millions of American 
consumers have their data breached, we really cannot afford not 
to.
    That is why I have been pressing credit and debit card 
companies on their plans to enhance card security through 
improvements like smart chip technology and chip and PIN, and 
that is why I was proud to join Chairman Leahy on his Data 
Privacy and Security Act. I think it is just common sense that 
the consumers should be told when their data has been stolen 
and that we do everything we can to secure it before that 
happens.
    I want to thank the witnesses for their testimony today. 
You have helped us understand not only how these breaches 
occurred but how we can move forward from this point to better 
protect consumers and better enforce our laws.
    The record will be held open until February 11th for 
questions and any further materials. You are now dismissed, and 
this hearing is adjourned.
    [Whereupon, at 1:07 p.m., the Committee was adjourned.]
    
    
    
    
    
    
                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre></body></html>
